<html>
<title> - RUNWAY SAFETY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                            RUNWAY SAFETY

=======================================================================


                                (110-99)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                           FEBRUARY 13, 2008

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure




                   U.S. GOVERNMENT PRINTING OFFICE
40-816 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ARCURI, New York          CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               VACANCY
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
VACANCY

                                  (ii)



                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York, Vice Chair   SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
ELLEN O. TAUSCHER, California        York
TIM HOLDEN, Pennsylvania             LYNN A WESTMORELAND, Georgia
MICHAEL E. CAPUANO, Massachusetts    MARY FALLIN, Oklahoma
DORIS O. MATSUI, California          VERN BUCHANAN, Florida
MAZIE K. HIRONO, Hawaii              JOHN L. MICA, Florida
LAURA A. RICHARDSON, California        (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Barimo, Basil J., Vice President, Operations and Safety, Air 
  Transport Association of America...............................    29
Boyer, Phil, President, Aircraft Owners and Pilots Association...    29
Dillingham, Dr. Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office..........................     4
Duval, John K., A.A.E., Airport Safety and Security Coordinator, 
  Beverly Municipal Airport and Former Deputy Director for 
  Aviation and Operations, Massachusetts Port Authority and 
  American Association of Airport Executives.....................    29
Forrey, Patrick, President, National Air Traffic Controllers 
  Association....................................................    29
Krakowski, Hank, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration, accompanied by 
  Jim Ballough, Director, Flight Standards Service, Federal 
  Aviation Administration........................................     4
Kallenbach, T.K., Vice President, Marketing and Product 
  Management, Honeywell Aerospace................................    29
Prater, Captain John, President, Air Line Pilots Association.....    29
Principato, Greg, President, Airports Council International_North 
  America........................................................    29
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation..............................................     4
Sumwalt, Hon. Robert L., Vice Chairman, National Transportation 
  Safety Board...................................................     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    51
Cohen, Hon. Steve, of Tennessee..................................    52
Costello, Hon. Jerry F., of Illinois.............................    53
Hall, Hon. John J., of New York..................................    60
Mitchell, Hon. Harry E., of Arizona..............................    61
Oberstar, Hon. James L., of Minnesota............................    63
Salazar, Hon. John T., of Colorado...............................    67

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Barimo, Basil J..................................................    69
Boyer, Phil......................................................    75
Dillingham, Gerald L.............................................   112
Duval, John K....................................................   227
Forrey, Patrick..................................................   241
Kallenbach, T.K..................................................   251
Krakowski, Hank..................................................   271
Prater, John.....................................................   297
Principato, Greg.................................................   309
Scovel III, Hon. Calvin L........................................   318
Sumwalt, Robert L................................................   346

                       SUBMISSIONS FOR THE RECORD

Dillingham, Dr. Gerald, Director, Physical Infrastructure Issues, 
  U.S. Government Accountability Office:

  Response to question from Rep. Costello........................     8
  Response to question from Rep. Richardson......................    20
  ``Aviation Runway and Ramp Safety,'' United States Government 
    Accountability Office, Report to Congressional Requesters....   135
Krakowski, Hank, Chief Operating Officer, Air Traffic 
  Organization, Federal Aviation Administration:

  Responses to questions from Rep. Duncan and Rep. Richardson....   291
  Responses to questions from Rep. Moore via Rep. Petri..........   294

[GRAPHIC] [TIFF OMITTED] 40816.001

[GRAPHIC] [TIFF OMITTED] 40816.002

[GRAPHIC] [TIFF OMITTED] 40816.003

[GRAPHIC] [TIFF OMITTED] 40816.004

[GRAPHIC] [TIFF OMITTED] 40816.005

[GRAPHIC] [TIFF OMITTED] 40816.006

[GRAPHIC] [TIFF OMITTED] 40816.007

[GRAPHIC] [TIFF OMITTED] 40816.008

[GRAPHIC] [TIFF OMITTED] 40816.009

[GRAPHIC] [TIFF OMITTED] 40816.010

[GRAPHIC] [TIFF OMITTED] 40816.011


                        HEARING ON RUNWAY SAFETY

                              ----------                              


                      Wednesday, February 13, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Jerry 
F. Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order.
    The Chair will ask all Members, staff and everyone to turn 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to hear testimony on 
runway safety. I will give a brief opening statement and then 
yield to the Ranking Member, Mr. Petri, for his opening 
statement or any remarks he may have, and then we will go to 
our first panel of witnesses.
    I welcome everyone to our hearing today on runway safety. 
This hearing highlights the Subcommittee's responsibility to 
ensure that the FAA is fulfilling its duties to provide 
comprehensive safety oversight in every aspect of the aviation 
system including runway safety.
    While the United States has the safest air transportation 
system in the world, we can't rely on or be satisfied with our 
past success. We must continue to strive for greater success 
because one accident or near accident is one too many, 
especially when the FAA is predicting a tripling of passengers 
and cargo by the year 2025.
    Late last year, the Government Accountability Office, the 
GAO, issued its report on runway and ramp safety which Chairman 
Oberstar and I requested. We will hear from Dr. Dillingham and 
others concerning the GAO report.
    According to the GAO, the rate of runway incursions in 
fiscal year 2007 increased to 6.05 incidents per million 
operations. This is a 12 percent increase over 2006 and the 
highest since 2001 when the rate reached 6.1 incidents per 
million operations.
    While the number of severe runway incursions dropped from 
53 incidents in 2001 to 24 in 2007, in the first quarter of 
fiscal year 2008 alone, there have been 10 severe runway 
incursions. This is simply unacceptable.
    The GAO has stated that the FAA's lack of leadership on 
this issue, including a director level vacancy in the Office of 
Runway Safety for over two years and an out of date national 
runway safety plan has impeded further progress. While the FAA 
has finally filled its Runway Safety Office Director position, 
this Subcommittee wants to know what the FAA's plan is on a 
national level to improve runway safety.
    To ensure this issue remains at the forefront of the FAA 
safety agenda, I want the FAA to provide a progress report to 
this Subcommittee every three months, detailing each Category A 
and B runway incursion, how the FAA responded and what progress 
is being made to address these incidents and reduce the overall 
number of runway incursions.
    The GAO also cited controller fatigue as a major factor in 
runway safety, and I am interested in hearing more from our 
witnesses including Mr. Pat Forrey, the President of the 
National Air Traffic Controllers Association, on this issue.
    Around the Country, controllers are working longer hours to 
handle increasingly congested runways and airspace in part 
because of staffing shortages. While the FAA may not admit that 
there is a problem, I can assure you, after talking to all of 
the users of the system, there is a problem.
    In addition to the 10 severe runway incursions in the first 
quarter of fiscal year 2008, there was also a near miss at the 
Chicago center in December of 2007. This should serve as a 
wake-up call to the aviation community that something needs to 
be done now to avoid a major disaster in the near future.
    Human factors will always be a challenge, but with enough 
redundancy worked into the system, using technologies like the 
ones we will hear about today, we will be able to mitigate 
their effects. I am interested in learning more about near and 
long term technologies such as ASDE-X, runway safety lights and 
low cost surveillance systems.
    In H.R. 2881, the FAA Reauthorization Act of 2007 which 
passed the House of Representatives on September 20th of 2007 
and has yet to be acted on by the Senate, we included 
provisions to address runway safety. H.R. 2881 provides $42 
million over 4 years for runway incursion reduction programs 
and $74 million over 4 years for runway status light 
acquisition and installation. Further, it requires the 
Administrator to submit a report to Congress, containing a 
strategic runway safety plan and a plan for the installation 
and deployment of systems to alert controller and flight crews 
to potential runway incursions.
    Safety must not be compromised in an effort to save money 
or because of a lack of resources or attention. The FAA and the 
aviation community must do better.
    I assure you that this Subcommittee will keep the FAA's 
feet to the fire to keep safety efforts on track. The American 
traveling public deserves nothing less.
    With that, I will recognize our Ranking Member for his 
opening statement, but before I do I ask unanimous consent to 
allow two weeks for all Members to revise and extend their 
remarks and to permit the submission of additional statements 
and materials by Members and witnesses. Without objection, so 
ordered.
    At this time, the Chair recognized the Ranking Member, Mr. 
Petri.
    Mr. Petri. I thank Chairman Costello, and I would like to 
thank our witnesses for appearing before the Subcommittee today 
to discuss the important aviation safety matter that is before 
us, and that is the issue of runway safety.
    Though we are currently in the safest period in aviation 
history, as long as human beings endeavor to take to the skies, 
there will always be the potential for human error and for 
accidents, but the Federal Aviation Administration, this 
Subcommittee and, in fact, the entire aviation community are 
charged with ensuring the safest national airspace system that 
is humanly possible.
    A recent Government Accountability Office report studied 
runway incursions as well as runway and ramp safety and found 
that while the rate for most serious categories of runway 
incursions is down from last year, 24 events out of 61 million 
aircraft operations, there was an anomalous uptick in runway 
incursions in the first quarter of this year. Therefore, we 
need to remain vigilant in our oversight of this issue.
    I am looking forward to hearing about the steps that the 
Federal Aviation Administration, airports, airlines, pilots, 
avionics manufacturers, general aviation users and controllers 
are taking to reduce the risk for these potentially deadly 
runway incursions.
    I believe that there are many ways to address runway 
safety. Clearly, there is no silver bullet to eliminate runway 
incursions. I am interested in hearing about the many 
technologies currently deployed to reduce runway incursions as 
well as those that are under development and may be deployed 
before long, technologies such as runway status lights, ASDE-X, 
TCAS, low cost surface surveillance, all have the potential to 
drastically reduce the incidence of runway incursions.
    In addition to technological innovations, I am interested 
in hearing about the bricks and mortar type solutions. 
Crushable concrete engineered materials arresting systems that 
have been installed at 21 airports have proven effective. 
Increased painted markings and signage improvements at airports 
are also underway. End-around perimeter taxiways have been 
installed at Atlanta's airport, reducing runway crossings from 
roughly 650 to less than 100 per day.
    The Federal Aviation Administration is currently evaluating 
these approaches, and I am interested in hearing from our 
witnesses what they think about these strategies and from the 
Federal Aviation Administration on their plan to deploy these 
and other measures.
    Beyond the flashing lights, radar, alerting systems and 
concrete, it is important that we address human factors issues 
that affect runway safety. Pilot alertness and situational 
awareness are critical to safe flights. Also, as we seek to get 
more information to pilots, it is important that we strike a 
balance that does not overload or distract them.
    Although the National Transportation Safety Board has not 
cited controller fatigue as a factor causing runway incursions 
that they have investigated, including last summer's tragic 
incident in Lexington, Kentucky, some have cited controller 
fatigue as an area of concern, and I am interested in hearing 
about these concerns as well.
    However, as with all runway safety issues, it is critical 
that this discussion be based upon data and science. We must be 
cautious when discussing safety to avoid just raising 
extraneous issues. Otherwise, we won't achieve the safety 
benefits that we are all seeking.
    Finally, I am interested in hearing about the FAA's call to 
action on runway safety. The agency has clearly taken steps to 
address this issue, but it will be important to keep their 
programs on scheduled and to continue to maintain the vigilant 
oversight that we are seeing now.
    The number of enplanements is projected to rise and, of 
course, an increase in runway incursions would be absolutely 
unacceptable.
    So I appreciate the efforts of all of our witnesses to 
address this important safety issue, and I look forward to your 
testimony.
    With that, I yield back. Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the Ranking Member and, at 
this time, will introduce our first panel of witnesses. As you 
may have noted, we have two panels of witnesses today.
    The first panel: Dr. Gerald Dillingham, who is no stranger 
to this Subcommittee, he has testified before our Subcommittee 
many times, and I have referred to him in our statement 
concerning his runway safety report; Mr. Hank Krakowski who is 
the Chief Operating Officer of the Air Traffic Organization 
over at the FAA, accompanied by Mr. Jim Ballough, who is the 
Director of Flight Standards Service for the FAA; the Honorable 
Robert Sumwalt, the Vice Chairman of the National 
Transportation Safety Board; and the Honorable Calvin Scovel 
who is the Inspector General for the U.S. Department of 
Transportation.
    Gentlemen on our first panel, we normally adhere to the 
five minute rule but because the GAO report will be detailed 
for us by Dr. Dillingham, we are going to be liberal with his 
time but probably enforce your time. So we will give Dr. 
Dillingham more time than our other witnesses.
    Dr. Dillingham, thank you for being here--we thank all of 
the witnesses for being here--and you are recognized.

    TESTIMONY OF DR. GERALD DILLINGHAM, DIRECTOR, PHYSICAL 
 INFRASTRUCTURE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; 
     HANK KRAKOWSKI, CHIEF OPERATING OFFICER, AIR TRAFFIC 
 ORGANIZATION, FEDERAL AVIATION ADMINISTRATION ACCOMPANIED BY 
   JIM BALLOUGH, DIRECTOR, FLIGHT STANDARDS SERVICE, FEDERAL 
AVIATION ADMINISTRATION; THE HONORABLE ROBERT L. SUMWALT, VICE 
    CHAIRMAN, NATIONAL TRANSPORTATION SAFETY BOARD; AND THE 
   HONORABLE CALVIN L. SCOVEL, III, INSPECTOR GENERAL, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Dillingham. Good afternoon, Mr. Chairman, Mr. Petri, 
Members of the Subcommittee. Thank you for permitting GAO to 
provide the background for this important hearing and to 
present the highlights of our testimony in this format.
    At the request of this Subcommittee, Chairman Oberstar and 
Senator Lautenberg, we undertook a study of runway safety. In 
our testimony this afternoon, we will first define and describe 
some key types of incursions. Second, we will present the key 
findings of the GAO study and, finally, we will offer some 
suggestions for actions that we think could be undertaken to 
address the problem.
    Regarding the nature of incursions, a runway incursion is 
generally defined as an incident that occurs on the airfield 
when one aircraft comes too close to another aircraft, vehicle 
or person. It is not generally considered an aviation accident, 
but many aviation safety experts consider incursions as 
precursors or early warnings of accidents.
    Incursions can occur in several ways. One of the more 
typical scenarios is shown here, illustrating the path of two 
aircraft that are proceeding towards intersecting runways. A 
second very typical scenario is one in which an aircraft 
attempts to land as a second aircraft taxis onto an active 
runway.
    Runway incursions are categorized in terms of severity 
based on the distance between aircraft and the possibility of a 
collision. Categories A and B are the most serious types as 
both of these categories indicate near collisions.
    The simulation you are about to see is an actual serious 
incursion that occurred July 11th, 2007 at the Ft. Lauderdale-
Hollywood Airport. In this simulation, you will see a Delta 757 
nearly touch down on a runway but have to become airborne again 
when the pilot sees a United A320 approaching the same runway.
    [Video shown.]
    Mr. Dillingham. These aircraft missed each other by less 
than a hundred feet.
    This next simulation illustrates the type of incursion that 
occurs when an aircraft attempts a landing on an occupied 
runway. This incursion occurred on July 5th, 2007 at the Denver 
International Airport. You will see a Frontier Airlines A319 
having to conduct a go-around procedure after seeing another 
jet on the runway.
    [Video shown.]
    Mr. Dillingham. These aircraft missed each other by about 
50 feet.
    Now I would like to turn to the key findings of our report. 
In our study, we looked back at incursions for 10 years. We 
found that the total number of all categories of incursions 
peaked in 2001 at 407.
    Between 2002 and 2006, the total number of incursions 
declined and was relatively flat. This relatively flat line 
still indicates that there was at least one incursion some 
place in the U.S. every day.
    In 2007, the overall incursion rate peaked again and was 
nearly as high as the 2001 peak.
    This next graph shows only the serious incursions. This is 
Categories A and B. There are two key points that can be taken 
from this data.
    First, the number of serious incursions followed a similar 
pattern as overall incursions with a significant drop in 2002 
and a relative downward trend to 2006 when there were 31 
serious incursions. This graph also shows a 24 percent drop in 
the number of serious incursions from 2006 to 2007.
    The second key point is that about one-third of these 
serious incursions involved at least one commercial aircraft, 
each of which represents a potential catastrophic accident.
    As this next graphic illustrates, this is a problem that 
will require sustained attention. It shows that in the first 
quarter of this year there were 10 serious incursions. This is 
five times the number of serious incursions from the same time 
period from the previous year.
    With regard to the cause of incursions, our study found 
that over half were attributed to pilot error. Slightly more 
than a quarter were caused by controller error, oftentimes 
involving some kind of controller miscommunication between the 
pilot and the controllers. About 15 percent involved a vehicle 
or pedestrian error such as a service truck entering an active 
runway.
    Turning now to the initiatives to address the incursion 
problem. As Mr. Petri said, there are no silver bullets and, as 
long as there are humans in the loop, there will probably never 
be zero incursions.
    We think that a multi-faceted, layered approach has the 
best chance of minimizing the problem. Among the initiatives 
that we consider that could be done immediately are to continue 
the efforts that FAA has underway including the training, 
improving airport signage and markings, and individual airport 
reviews with stakeholders;
    Second, develop and implement the national runway safety 
plan;
    Third, address human factors issues such as controller 
overtime and fatigue issues and adopt international standards 
for controller communications; and
    Fourth, accelerate the technological remedies such as 
runway status light, low cost surface surveillance systems and 
the deployment of ASDE-X.
    In addition, we think that initiatives such as the 
development of a confidential reporting system should be 
expedited and, to the extent it is operationally feasible, 
runway crossing should be minimized.
    Initiatives for the longer term include making 
infrastructure changes such as the perimeter taxiway that was 
recently opened at Atlanta Hartsfield. Another longer term 
initiative is the development of moving maps that will allow 
pilots to know where they are located on the airfield as well 
as the location of other aircraft and vehicles.
    The last initiative which will be demonstrated in the next 
two video clips is one that the NTSB has been recommending for 
almost 10 years. This is an audible warning to the pilots in 
the cockpit. The first video shows the view from the cockpit, 
and you will hear the audible warning to the pilot about an 
aircraft approaching on a converging runway.
    [Video shown.]
    Mr. Dillingham. The second clip will also be a view from 
the cockpit with the audible warning to the pilot. Take note of 
the arrow in the video that locates an aircraft approaching the 
runway on which another aircraft is about to land.
    [Video shown.]
    Mr. Dillingham. In addition to the audible warning, the 
advantages of this technology are that it is radar-based and 
avoids any delay or miscommunications between the controller 
and the pilot.
    Mr. Chairman, Members of the Subcommittee, with the current 
situation and forecasted increases in traffic, runway 
incursions are a safety problem that require actions that must 
be sustained beyond any temporary reduction in the number of 
incursions.
    Thank you.
    Mr. Costello. We thank you, Dr. Dillingham. We will have a 
chance to come back and ask questions concerning not only your 
PowerPoint but other issues in the report, but let me quickly 
ask you a couple of questions before we move on to Mr. 
Krakowski.
    The Ft. Lauderdale incident where the two aircraft came 
within 100 feet of each other, was that pilot error or was that 
controller error?
    Mr. Dillingham. I don't know the answer to that, but I will 
get back to you, sir.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 40816.012
    
    Mr. Costello. Okay. The second incident in Denver where the 
one plane had to go around, that came within 50 feet, was it 
controller or pilot?
    Mr. Dillingham. I believe that was pilot error where the 
pilot turned onto the wrong runway.
    Mr. Costello. Very good. Thank you. As I said, Dr. 
Dillingham, we will have other questions for you after we hear 
from the other witnesses. We thank you for your testimony and 
for the PowerPoint as well.
    Mr. Krakowski, you are recognized for five minutes.
    Mr. Krakowski. Good afternoon, Chairman Costello, 
Congressman Petri and Members of the Subcommittee.
    I am Hank Krakowski. I am the Chief Operating Officer of 
FAA's Air Traffic Organization. With me today is Jim Ballough. 
Jim is our Director of Flight Standards Service, specifically 
working on the pilots' side of this issue.
    I am honored to be here today to discuss ways that everyone 
can work together to improve runway safety. At FAA, safety is 
our top imperative. While 2007 was the safest year yet for 
aviation, we remain focused to make the safest system in the 
world even safer.
    Runway safety starts with preventing runway incursions, 
whether these mistakes are made by pilots, controllers or 
ground staff. Our most recent efforts have made a difference. 
We have reduced serious runway incursions by 55 percent since 
2001.
    The next chart breaks down last year's runway incursions by 
severity. You will note a change in October when the FAA 
adopted the new international definition from when we began 
counting every single mistake on the runway or taxiway, even if 
another aircraft was not present. This was not previously done, 
and it appears that incursions are actually rising 
dramatically.
    Actually, what we are doing is we are counting more 
incursions so we can understand the risks better. So, by 
getting this additional data of actually treating every single 
event as a serious issue to look at, I think we have a better 
shot at assessing our safety risk.
    The FAA investigates every runway incursion so we can 
understand what causes it. As you heard, pilot error accounts 
for approximately 60 percent right now, air traffic controller 
error around 30 percent, and the remaining 10 to 15 by ground 
staff.
    The call to action for runway safety which started last 
summer resulted in specific runway safety improvements at 
hundreds of airports across the Nation. We improved airport 
signage and runway markings, and our busiest airports have 
received satellite-based runway surveillance technology to help 
warn controllers of a possible collision. Chicago O'Hare is 
receiving this system a year ahead of schedule.
    For pilots, we have installed runway status lights which 
were endorsed in the NTSB Most Wanted List. The lights turn red 
when there is traffic on or approaching the runway. Runway 
status lights are preventing potential accidents today and, in 
fact, just last week at Dallas-Ft. Worth, an incursion was 
avoided because the pilot saw the red lights and did not enter 
the active runway.
    Not all measures to improve runway safety will involve 
installing new equipment, though. FAA runway safety action 
teams have visited 20 of the busiest airports to identify short 
term fixes such as new signs, better markings and, more 
importantly, training for pilots, controllers and ground staff. 
Our teams are headed to even more airports this year as a 
result of the success with these first 20.
    Another critical component, though, of this program is to 
complete our work with NATCA, the controllers' union, to 
implement a non-punitive, voluntary reporting system for air 
traffic controllers, similar to the Aviation Safety Action 
Programs at the airlines.
    In my previous role as Chief Safety Officer for United 
Airlines, I was responsible for four such programs for pilots, 
dispatchers, mechanics and flight attendants. Because of this 
experience, I am convinced that the information derived from 
this program will be extremely powerful in understanding the 
human factors involved in such errors.
    The entire aviation community has a role in the solutions, 
and I am happy to report that they are stepping up to the 
plate.
    I welcome the Committee's assistance in these efforts. This 
concludes my remarks, and I would be happy to answer any 
questions you may have.
    Mr. Costello. The Chair thanks you and now recognizes Mr. 
Ballough.
    Mr. Ballough. Mr. Chairman, I do not have any opening 
remarks, but I am here to answer questions regarding pilot 
issues.
    Mr. Costello. The Chair now recognizes Mr. Sumwalt.
    Mr. Sumwalt. Thank you and good afternoon, Chairman 
Costello, Ranking Member Petri, Chairman Oberstar and Members 
of the Subcommittee. Thank you for the opportunity to present 
testimony on behalf of the National Transportation Safety 
Board.
    As you know, the Safety Board is charged with investigating 
accidents and incidents, determining their probable cause and 
issuing safety recommendations to prevent their reoccurrence.
    The Safety Board is especially concerned about runway 
incursions due to their number and potential severity. In fact, 
the world's largest aviation disaster was a result of a runway 
incursion. In that accident in 1977, 583 lives were lost 
because 2 jumbo jets collided on a runway in Tenerife, the 
Canary Islands.
    Incursions occur because of human error. Pilots make 
mistakes. Controllers make mistakes as do those driving ground 
vehicles. So there is no single solution.
    In 2000, the Safety Board made recommendations to address 
the issue in a variety of ways including procedural changes, 
educational changes and technological improvements that require 
a direct warning to the flight crews. This direct warning is 
critical because it would provide pilots with additional time 
to react.
    Since 2005, the FAA has been conducting the field tests of 
the runway status lights at the Dallas-Ft. Worth International 
Airport. Initial test results are promising, and the FAA is 
planning to conduct tests at other airports.
    The FAA has also promoted Automatic Dependent Surveillance-
Broadcast, or ADS-B, as a method of mitigating the number and 
severity of runway incursions. For ADS-B to provide the maximum 
safety benefit, the system should support both ADS-B Out and 
ADS-B In.
    With ADS-B In, surface conflict warnings are provided 
directly to the pilots in the cockpit, offering the greatest 
opportunity for improved situation awareness. The FAA's NPRM 
regarding ADS-B states that aircraft will be required to be 
equipped with ADS-B Out but not until the year 2020, and 
moreover the FAA does not plan to mandate ADS-B In at all, and 
this concerns the Safety Board.
    While the Safety Board is encouraged the efforts of the 
FAA, their progress has been slow to responding to 
recommendations issued seven years ago. Further, national 
implementation of these technologies is still years away, and 
not all airports with passenger service would be equipped.
    The FAA has made progress with lighting and improved 
signage at airports, but basic improvements in air traffic 
control procedures are needed.
    The Safety Board has several outstanding recommendations to 
the FAA regarding clearances given to pilots when taxiing 
across runways. Although these recommendations mirror those 
contained in ICAO guidance used internationally for 
implementing runway safety programs, the FAA has not 
implemented them. If they had been implemented, the ComAir 
accident in Lexington, Kentucky, might not have occurred.
    We need the extra protection of additional procedures and 
advanced technology to compensate for human errors. We strongly 
urge action on these critical safety issues.
    I will now briefly turn to the issue of fatigue. Like 
runway incursions, fatigue has been on the Safety Board's Most 
Wanted List since this list was conceived, the inception of 
this list in 1990.
    We have issued numerous recommendations regarding aviation 
fatigue regarding flight crews, mechanics and air traffic 
controllers. However, to date, the FAA has taken little 
regulatory action regarding directly related to revising 
existing regulations and work scheduling practices.
    The FAA is in the process of convening a working group to 
develop scheduling practices that minimize controller 
impairment due to fatigue. The Safety Board supports these 
efforts and continues to believe that further action must be 
taken, especially in issuing scientifically-based duty time 
regulations and policies that minimize fatigue among flight 
crews, mechanics and air traffic controllers. Operating or 
controlling an aircraft without adequate rest presents an 
unnecessary risk to the traveling public.
    Mr. Chairman, this completes my testimony, and I will be 
glad to answer questions at the appropriate time. Thank you.
    Mr. Costello. The Chair thanks the gentleman and now 
recognize General Scovel.
    Mr. Scovel. Mr. Chairman, Ranking Member Petri, Chairman 
Oberstar, Members of the Subcommittee, we appreciate the 
opportunity to testify today on runway safety.
    Aviation stakeholders are expressing growing concern over 
the rise in runway incidents. A significant threat to runway 
safety is runway incursions, which are defined as any incident 
involving an unauthorized aircraft, vehicle, or person on a 
runway. Since 2003, the number of runway incursions has begun 
climbing again, reaching a high of 370 in 2007, a 12 percent 
increase over the previous year.
    While the most serious incidents decreased from a high of 
69 in 1999 to a low of 24 in 2007, during the first 3 months of 
fiscal year 2008, 10 serious runway incursions occurred. If 
that rate were to continue, 40 serious incursions could occur 
before the end of this year, which would be the highest level 
in 6 years.
    Over the last 10 years, our work has shown that a range of 
actions is needed to enhance the margin of safety on the 
Nation's runways. We see four specific areas where FAA and 
other aviation users should focus on runway safety efforts.
    First, FAA must implement existing and new systems to 
improve runway safety. New technology is considered by many to 
be a key factor in the mix of solutions for improving runway 
safety. However, our work on three major FAA acquisitions for 
improving runway safety has shown significant concerns as to 
what can be effectively deployed within the next several years.
    For example, ASDE-X, a ground surveillance system that 
warns controllers of possible runway conflicts, may not meet 
its cost and schedule goals to commission all 35 systems for 
$549.8 million by 2011. Questions have arisen as to whether it 
will be able to deliver all the planned safety benefits, such 
as providing alerts at intersecting runways.
    Another promising technology is runway status lights, a 
``stoplight'' system that alerts pilots when a runway is 
occupied. However, the system is in the very early stages of 
development, and a key issue is that it uses ASDE-X data for 
its surveillance capabilities. It is therefore dependent on 
successful deployment of ASDE-X.
    One of the most promising technologies on the horizon is 
ADS-B. However, as we testified last October, ADS-B ground 
infrastructure will not be in place until 2013, and users will 
not be required to equip with some of the needed avionics until 
2020.
    Second, FAA must make airport-specific infrastructure and 
procedural changes. The uncertain timeline and emerging risks 
of FAA's runway safety technologies underscore the need to 
explore other near-term solutions. Several relatively low-cost, 
simple, airport-specific changes_such as better signage, 
improved runway markings and lighting, and procedural changes 
in daily airport operations_can go a long way to improve the 
margin of safety.
    However, as we reported in May of last year, other than 
networking, NAS users had no official way to share actions that 
were successful at reducing runway incursions at their 
locations.
    We recommended that FAA develop an automated means to share 
best practices among all users of the NAS. In response, FAA 
implemented a best practices website for runway safety in 
December 2007. We will now see how well it is being utilized.
    Third, FAA must reinvigorate its national program for 
improving runway safety. From 1999 to 2001, runway incursions 
increased at alarming rates. To its credit, FAA then took 
decisive action that helped to reduce these incidents. It 
established regional runway safety offices and initiated 
aggressive educational programs for pilots.
    However, we found that many of those important national 
initiatives waned as the number of incidents declined and FAA 
met its overall goals for reducing runway incursions. For 
example, FAA established the Runway Safety Office in 2001, but 
until August 2007 it had not had a permanent director for 
almost 3 years. FAA also stopped preparing its national plan 
for runway safety, which defined the Agency's strategy and 
prioritized efforts to reduce runway incursions.
    In response to our recommendations, FAA has begun 
addressing many of these concerns. In addition to hiring a 
permanent director for the Runway Safety Office, FAA plans to 
reinstate its national plan for runway safety. These are good 
steps, and the key now will be maintaining momentum.
    Last, FAA must address controller human factors issues 
through improved training. As we testified last week, 
controller staffing and training will be key watch items over 
the next 10 years as FAA begins hiring and training 15,000 new 
controllers. Training new controllers on human factors issues 
such as fatigue and situational awareness will become 
increasingly important as FAA begins addressing the large 
influx of trainees.
    FAA has successfully implemented an important initiative to 
address this type of required training: tower simulators. These 
simulators provide controllers with a virtual replica of the 
tower environment. The simulators use real-life scenarios such 
as day and night operations, varying weather conditions, and 
emergency situations. This is important technology to help new 
and veteran controllers hone their skills in conditions when 
runway incursions are most likely to occur.
    That concludes my statement, Mr. Chairman. I would be happy 
to answer your questions or questions from other Members of the 
Subcommittee.
    Mr. Costello. Thank you, General Scovel.
    Dr. Dillingham and Mr. Krakowski, let me ask Mr. Krakowski. 
It is clear from reading Dr. Dillingham's report that in fact 
he compliments the FAA for taking action in 2001, and then the 
report goes on to state that while the agency recognized when 
the ground incursions and runway safety issues reached their 
peak in 2001, that the FAA took action and they focused on the 
problem.
    But, however, as the number of incursions started to 
decrease, the FAA took their eye off the ball, went on to other 
issues and no longer considered it a priority until in 2007 
when the number of incursions reached almost its peak of 2001.
    I think that is demonstrated very clearly by the fact that 
there was a vacancy in the Office of Director of Runway Safety 
for over two years and the safety plan at the FAA, the runway 
safety plan, clearly was outdated as Dr. Dillingham indicated.
    So it is clear to me that when the FAA either recognizes a 
problem or someone says we have a problem and you need to 
address this, when the FAA acts, then in fact positive results 
can happen. It is only when you take your eye off the ball, the 
agency takes its eye off the ball, that we go back and we run 
into these problems again.
    I was struck last night, reading your testimony, Mr. 
Krakowski. On page three, it says only 8 out of 24 serious 
incursions involved a commercial air flight and none of these 
370 incursions resulted in a collision. While most of these 
incursions are Category C incidents, which pose little or no 
risk to the public, the increase in the incursions and the fact 
that the serious incursions are still occurring prompted the 
Administrator to issue a call to action on runway safety.
    Two points: One is I question the fact that the 
Administrator implemented a call to action because of the 
number of incidents. I happen to believe it is because this 
Subcommittee requested the GAO to do a report on runway safety 
because we were concerned, and I think that prompted the agency 
then to take action in 2007. Chairman Oberstar and I were 
concerned in 2006, and that is why we requested the GAO report.
    So I would just say that it is more than a coincidence that 
we requested the report in 2006, and in 2007 the Administrator 
said we better take a look at this and we better do something.
    Having said that, what struck me in your testimony, and I 
hope that you didn't mean it to come off this way, only 8 of 24 
serious incursions. It is almost like well, we have these 
incursions, but really there was not a loss of life or a 
serious disaster. So is it really that big of a deal?
    I just want you to know that we on this Subcommittee and 
others in the aviation world believe that it is.
    I happen to believe that it, along with runway incursions, 
along with the fatigue factor with pilots and with controllers, 
are the two biggest concerns that I have with safety in the 
aviation industry today. It is fatigue and runway incursions.
    So we hope that you, in fact, are taking action to follow 
the GAO's plans, and I am going to get to that in just a few 
minutes.
    Dr. Dillingham, you state in your testimony that the FAA 
indicates that they want to equip 35 airports with ASDE-X. 
However, the agency has equipped 11 out of the 35 airports that 
they intend to equip, and they have spent almost 60 percent of 
the allocated funds for these 35 airports.
    Given that fact, are they going to be able to reach their 
goal of 35 airports, given the fact that they have already 
spent 60 percent of their money on one-third of the airports 
that they intend to equip?
    Mr. Dillingham. Mr. Chairman, it is a concern of ours not 
only in terms of the money spent but the time that it has taken 
them to put out the 11 that they have. The expectation is that 
the rest of them can be put out in half the time it has taken 
to put out the few that have been put out.
    So it is unlikely at this point. At least, we don't see how 
this can happen on the budget and the schedule that is being 
presented to us.
    Mr. Chairman, with your permission, I would like to come 
back to the first question and give you some details on the two 
simulations that we had. I had to refer to my notes. I am old, 
you know.
    The Ft. Lauderdale incident, it occurred with visibility of 
10 miles. It was daylight. The airport did not have ASDE-X or 
AMASS. The probable cause according to the NTSB is that the 
flight crew inadvertently entered into an active runway. They 
had missed a taxiway as they were on the airfield.
    On the Denver incident, it was a combination of things. It 
was the fact that the aircraft turned onto the wrong runway, 
and the controllers could not identify them on the AMASS. It 
was a snowy day as such, but it was a combination of things in 
that case.
    Mr. Costello. You address the issue of fatigue in your 
report and, of course, the NTSB has listed that as a concern 
for many years. I guess since the early nineties. General 
Scovel has touched on it as well.
    What, in your opinion, or what evidence are you seeing that 
the FAA is addressing the fatigue issue with air traffic 
controllers and others in the system?
    Mr. Dillingham. We have had numerous conversations with FAA 
with regard to what can be done about this because we think 
that this is one of the immediate things that needs to be done 
because it is a matter of moving controllers to these busy 
places where you have these six-day weeks and ten-hour days 
that you can relieve some of that fatigue.
    FAA tells us that they are, in fact, studying where they 
have these few, relatively few places where the controllers are 
doing these six-day, ten-hour work days and intend to address 
that issue immediately.
    Mr. Costello. I recall in your testimony from last week, 
and you correct me if I am wrong, but I think that you cited 
the issue of new controllers as opposed to experienced air 
traffic controllers.
    You, I think, testified, and correct me if I am wrong, that 
one facility you looked at where they had a small percentage of 
inexperienced air traffic controllers new to the job and 
another facility where half--Las Vegas as I recall--where half 
of the air traffic controllers were inexperienced and new to 
the job. It was either your testimony or General Scovel's, one 
of the two.
    We have a problem in the system, and we would hope that the 
FAA will acknowledge the problem and attempt to address it. Now 
I understand that they are now offering bonuses up to $24,000 
to retain experienced controllers, but there is a problem in 
the system.
    Finally, before I turn over to my Ranking Member for his 
questions, General Scovel, would you like to comment on the 
fatigue issue as well? Do you see any evidence that the FAA is 
addressing this issue?
    Mr. Scovel. Good afternoon, Mr. Chairman.
    Fatigue is a concern, and the NTSB has properly highlighted 
it as a concern for many years, specifically when it comes to 
air traffic controllers.
    By way of tagging fatigue as a direct or contributing 
factor to an aircraft incident or accident, it is my 
understanding that NTSB has not done so, although it closely 
examined that question in connection with the Comair accident 
in Lexington, Kentucky, in August 2006. Controller staffing in 
the tower at that incident and the degree of rest of the sole 
controller on duty at the time of that accident were factors 
that NTSB addressed, and I know Mr. Sumwalt can address those 
in more detail, should you wish.
    One of the key factors that came out of that from NTSB, and 
which we would completely agree with, is NTSB's recommendations 
to FAA that they undertake these actions: First, that FAA 
reduce the potential for controller fatigue by revising 
controller work scheduling policies and practices and that they 
modify their shift rotations. Second, that FAA develop a 
fatigue awareness and countermeasures training program for 
controllers.
    Mr. Chairman, it seems to us that there is a lot of 
bickering between controllers and the agencies regarding 
overtime and whether it contributes to fatigue.
    It seems, to me at least, a matter within common human 
experience that if any individual works long hours at a tough 
and demanding job, that individual at some point may likely get 
tired. The real question is: What are we going to do about it?
    NTSB has offered some very common-sense solutions to this, 
put the ball squarely in FAA's court, and we would endorse that 
and urge FAA to get on with it.
    Mr. Costello. Mr. Krakowski, finally, let me ask you to 
respond. What is the agency doing?
    You indicate in your testimony that pilot error accounts 
for 55 percent of runway incursions, according to your 
testimony. What is the FAA doing to work with the pilot 
community on training and education?
    Mr. Krakowski. Okay. I will have Jim Ballough actually 
assist me with this, but I would like to respond initially, 
sir.
    I take these issues very seriously as I did at my airline 
before coming to FAA. The one thing you cannot ever do is let 
up on safety. You have to constantly keep pressure on it at all 
times which means well-running safety programs, data-driven 
data collection programs with involvement by everybody involved 
in the system.
    That is what we are trying to construct with the ASAP, with 
the controllers which we hope to sign soon, integrating and the 
data that we are getting from the pilot community and those 
programs as well, as well as some of the other reporting 
mechanisms through the CAST, Commercial Aviation Safety Team 
and ASIAS work which is going to be kind of a center point for 
FAA and the user community to look at data and look for leading 
indicators. So we are doing some very sophisticated 
technological work with MITRE and some others to actually break 
some new frontiers in this area.
    More immediately, though, on the pilots' side, the call to 
action last August was also recently supplemented by the 
Administrator, the Acting Administrator calling the CEOs and 
Chief Operating Officers of all the airlines to raise their 
alertness that the issue is still a concern to us. With the 
support of the highest level of those corporations, the 
Directors of Safety and the Directors of Flight Operations at 
those airlines are working on some programs that I will have 
Jim talk about.
    Mr. Ballough. Thank you, Mr. Chairman, for the opportunity.
    As Hank mentioned, this past January, in fact beginning on 
the 18th of January, we had an outreach effort with the top 
officials from 116 of the major air carriers. We came together, 
and myself and my deputy personally did the sessions with the 
executives from the airlines, and we identified.
    First, we talked about the issues, showed the data to 
establish why they were there and to establish the concerns the 
FAA has and we all should have as an industry together, to face 
the issues regarding runway incursions, but this effort was 
focused primarily on the pilot deviation aspect. So these are 
errors made by the pilots and, as Hank said, 60 percent of the 
incursions involve pilots in some capacity.
    So we brought the executive together, and we asked them. We 
showed them the data. We went through 11 simulations or 
examples of runway incursions, some of which you saw here 
today, and we asked them to think about what it is we could do 
in the short term immediately to address the issues in the 
operational world.
    What we learned from the United incident in Ft. Lauderdale 
was that potentially when you view the tape, it appears as 
though the crew was doing a checklist item with the flight 
controls. That was a distraction. So we have asked the carriers 
to go back and look at their checklists and revise and identify 
any distractions that may occur and then remove those 
distractions from the checklist.
    We have a number of outreach efforts regarding training. We 
have asked them. There are some very good runway incursion 
training DVDs that are available. We have partnered with AOPA 
to develop some of those as well as ALPA, the Air Line Pilots 
Association. So those training materials are out there for the 
120, for the air carrier world.
    For the general aviation world, we have produced numerous 
DVDs as training materials, produced a number of pamphlets, 
continued to stress with all of our FAA safety team conferences 
that they hold. We have asked them to stress the issue of 
runway incursions, and we continue to look for new ways to also 
reach the pilots and provide more data to them as well.
    Mr. Costello. I thank you.
    Mr. Krakowski, I appreciate your commitment to never 
letting up. As I said, there has been evidence that the FAA has 
moved on to other priorities in the past, and we are pleased to 
have you in the position that you are in and committed to not 
letting up.
    With that, I would recognize the Ranking Member, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    I wondered. I am going to spend my time and there are a 
number of other Members who will be asking broader questions, 
but my Senators in Wisconsin and my colleague, Gwen Moore and 
Dr. Kagen, who is a Member of this Committee from my State of 
Wisconsin, and several other representatives have been sending 
letters and raising concerns about changes in control of the 
airspace involving the Milwaukee air traffic control unit.
    I really want to, if I could, Mr. Chairman, have permission 
to submit questions from Representative Moore and myself for a 
formal response after this hearing.
    Mr. Costello. Without objection.
    Mr. Petri. Then also to ask if Mr. Krakowski could respond 
or point out to a few areas of concern. What is happened is 
they are evidently consolidating or making changes in the air 
traffic control space which adds some 8,400 square miles to the 
direct so-called enroute aircraft flying through the airspace 
controlled by the Milwaukee unit.
    I wonder if you could spend a minute describing the 
planning process for this airspace absorption and whether the 
controllers involved were informed or involved in the planning 
process and also what kind of training the controllers have 
received or will receive to effect this change.
    Also, could you broadly describe what training, staffing 
and equipment needs the FAA has provided to ensure that when 
the switch takes place, air safety will not be compromised in 
any way?
    And, if there are any benefits from this change, if you 
could address those, we would appreciate it as well.
    This is a concern, obviously, in our region. People fly in 
and out of that region and, of course, everyone in the aviation 
community is aware that a lot of people fly through that area 
on their way to and from the largest general aviation festival 
in the world at Oshkosh each summer. So that puts extra strain 
on this whole part of the system.
    I appreciate your addressing that.
    Mr. Krakowski. I own a little airplane in Chicago and fly 
up in your airspace quite a bit. So I am intimately familiar 
with the airspace and the issues up there.
    As you know, O'Hare Airport is under some significant 
reconstruction and, as a result of that, airspace changes are 
needed to accommodate the evolution of the O'Hare airspace. The 
determination was made to give Milwaukee more airspace to 
control which is the issue.
    I am going to commit to you, first of all, that we will do 
it safely. We will make sure that we are monitoring the safety 
of the transition when it occurs and, again, we are not going 
to let up on that.
    In terms of training, we have sent people to O'Hare to 
actually observe the operation of that airspace that actually 
is being controlled by Chicago right now. So quite a few of the 
Members from Milwaukee have gone down to O'Hare to actually 
observe how to control traffic. There is a one-day classroom 
training session. There are nine simulations in the radar 
laboratory that we provide to the controllers as part of the 
training.
    Initially, there will be seven qualified people to man the 
new positions when we turn the switch. They, in turn, will get 
the other controllers the training and transition that they 
need to successfully work the airspace.
    So we have a plan. We believe it is a good plan. We believe 
it is a safe plan, and we are going to execute on that. I will 
be happy to give you the details in a written response.
    Mr. Petri. Thank you very much.
    Mr. Costello. The Chair now recognizes the gentlelady from 
California, Ms. Richardson.
    Ms. Richardson. Yes, thank you, Mr. Chair.
    Several questions, first of all, Mr. Dillingham, was your 
PowerPoint presentation included in here, the actual 
PowerPoint? I have your written, the other testimony, but is 
your PowerPoint?
    Mr. Dillingham. Ms. Richardson, if it is not included, we 
did bring CDs with that presentation on it. I don't know if it 
got included or not.
    Ms. Richardson. Okay. If we could, thank you.
    My second question is what is the tenure of air traffic 
controllers at each major airport?
    Mr. Dillingham. I really couldn't answer that at this 
point, but we could certainly provide that for the record. 
Maybe Mr. Krakowski might be in a better position to answer 
that.
    Ms. Richardson. I would like it in writing for this 
Committee because I think when I listen I see a lot of this 
going on here, and to me it is this for those of you who missed 
it for the first time.
    We either have people who have the tenure, who have the 
education, who have the training, who are prepared to work at 
the major airports or we don't. To me, I think that that is a 
critical piece of this.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 40816.013
    
    Ms. Richardson. On page 10 of your report, what was the 
reason for the two-year vacancy of the director position?
    Mr. Dillingham. FAA just did not fill the position. It is 
now filled, but it wasn't filled for almost three years.
    Ms. Richardson. Okay.
    Mr. Chairman, some of these things that we are hearing 
today, is there going to be a process of how we will bring 
forward, potentially, legislation? If the FAA doesn't feel it 
is important enough to do some things, will we have the ability 
to talk about what we would like to do from a legislation 
perspective?
    Mr. Costello. I think one of the reasons why we are getting 
some action is I had mentioned earlier concerning the GAO 
report and the attention of the Administrator on this issue is 
because the Subcommittee is beginning to provide aggressive 
oversight on these issues. That is the best function that we 
can perform here, and that is to make sure that the FAA and 
everyone in the aviation industry, that they are doing their 
job, in particular the FAA.
    As I indicated, I think that is an indication that we are 
not here to beat up on Mr. Krakowski. He has not been with the 
agency that long.
    But if this runway safety was a priority for the FAA, they 
would not have left that position open for two years and they 
would not have an outdated runway safety plan. So one of the 
reasons why they, I think, have kicked it into gear is because 
we are providing the oversight that needs to be provided.
    Mr. Dillingham. Ms. Richardson?
    Ms. Richardson. Yes.
    Mr. Dillingham. I can convey to you the response that we 
obtained when we asked FAA why the position was vacant for so 
long. Basically, FAA told us that they had devolved runway 
safety down to the various lines of business and down further 
from headquarters.
    Our response to that was that may be okay, but if there is 
no national strategy or national plan, you have a situation 
where different parts of the agency or different regions may be 
doing things differently. More importantly than that, the 
lessons that could be learned from good practices were not 
being shared on a national basis.
    Ms. Richardson. Thank you. I am glad that you are involved.
    My other question had to do with the deployment of the 
software systems. When I look at, for example, Chicago Midway, 
they are not expected to have scheduled deployment until June 
of 2010. Some of these others on here, when you look at the 
most runway incursions, it seems like some of the biggest 
airports that are having the problems are still waiting to get 
this information.
    Mr. Krakowski. What I would like to do is respond.
    It is less important to look at necessarily the history of 
runway incursions that have happened. We actually look at the 
risk, the complexity of the operation, the operational tempo at 
that airport, how many runways and taxiways intersect because 
we believe that you prioritize in terms of safety risk, not 
kind of a historical incident. That is an important component, 
but it is not the only component.
    Ms. Richardson. Okay. I will hold the rest of my questions. 
Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentleman from North Carolina, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Good to have you all with us today.
    When someone mentioned, Mr. Sumwalt, the Lexington, 
Kentucky accident, was there evidence that the air traffic 
controller mentioned was a victim of fatigue at that time?
    Mr. Sumwalt. Congressman Coble, it is a two-part answer. 
The controller likely was fatigued. We found that he had slept 
approximately 2 hours in the 24 hours prior to the accident.
    However, in the NTSB's analysis of that accident, we 
determined that there was no causal relationship between the 
controller's fatigue and the accident's occurrence.
    Mr. Coble. I got you. I thank you for that.
    I would like for you all to elaborate on the behavioral or 
the fatigue issue, what contributing factors may be involved.
    Mr. Scovel, you mentioned common sense recommendations or 
suggestions. They were submitted by whom?
    Mr. Scovel. By the NTSB, sir.
    Mr. Coble. What were some of the common sense 
recommendations?
    Mr. Scovel. First_and these arose out of the Lexington 
accident_that FAA revise its controller work scheduling 
policies and practices in order to provide rest periods that 
are long enough to obtain sufficient restorative sleep.
    Next, that FAA modify shift rotations for controllers so as 
to minimize disrupted sleep patterns and accumulation of sleep 
debt and increase cognitive performance.
    Lastly, it recommended for the benefit of controllers 
themselves, since controllers have a responsibility to take 
themselves off the scope when they feel that they are too 
fatigued to perform effectively, NTSB recommended that FAA 
develop for controllers a fatigue awareness and countermeasures 
training program.
    Mr. Coble. Now, have those recommendations been embraced or 
in practice?
    Mr. Scovel. I will defer to FAA on that, sir. It is my 
understanding that they are in the process of being 
implemented.
    Mr. Coble. All right, sir.
    Mr. Scovel, would you elaborate on in your testimony on the 
FAA's use of tower simulators for training? Is it your opinion 
that this is an effective way to train controllers and what is 
the FAA's deployment plan?
    Mr. Scovel. I can answer at least part of your question, 
sir, and if you would like I can take the rest for the record, 
or FAA may be able to respond here.
    We consider tower simulator training to be a very effective 
tool, and we would encourage FAA to move out on that as quickly 
as it is able.
    Our estimates are that simulators cost about $500,000 per 
facility plus approximately another $100,000 for individual 
software packages that may need to be configured for 
surrounding airports where controllers can also receive 
training on the tower simulator.
    The benefits are that simulators allow evaluation of new 
operations. They can study alternatives for improving safety, 
and they are of great benefit for both new and seasoned 
controllers.
    They have been proven in a couple of instances. At Boston 
Logan Airport, sir, a tower simulator was used to aid in 
establishing safety procedures to be implemented with a newly 
constructed runway. NASA used a tower simulator at Los Angeles 
Airport to study alternatives for improving runway safety as 
they looked at options for reconfiguring the layout of runways 
and taxiways at that airport.
    Mr. Coble. I thank you for that, sir.
    Any FAA deployment? Can anybody respond to that?
    Mr. Krakowski. Yes, Congressman. We have bought 24 of the 
systems. We will deploy 12 this year and 12 next year. I would 
be happy to submit the list of facilities to you formally.
    I just finished a 33-year career as a commercial airline 
pilot, and that is how we trained. We trained in simulators. 
You have a big fan sitting here of this technology for a lot of 
reasons. So I am looking forward to putting this out to the 
workforce.
    Mr. Coble. Well, thank you for that.
    Finally, Dr. Dillingham, in your view of the controller 
fatigue matters, did you find any evidence to support a causal 
link between runway incursions that you studied and controller 
fatigue?
    Mr. Dillingham. Mr. Coble, we did not find a causal link. 
We relied in large measure on the NTSB finding that basically 
said it was possible that it was a contributing factor, but no, 
we did not find a causal link. The NTSB was in reference to 
only four incidents, as I recall.
    Mr. Coble. I thank you, sir. Thank you all again.
    Mr. Chairman, I yield back.
    Mr. Costello. Thank you.
    The Chair now recognizes the other gentleman from North 
Carolina, Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman. I hope people don't 
think North Carolina is getting an unfair advantage here.
    I will have to admit at the beginning that this is an 
important safety issue, but for others of you in the audience 
there are other far more compelling safety issues. I hope we 
don't lose sight of them as we focus on this one.
    Mr. Krakowski, what is the maximum allowable overtime for 
an air traffic controller? How many hours?
    Mr. Krakowski. Ten hours, sir. Ten hours.
    Mr. Hayes. Ten hours a day. How many hours a week?
    Mr. Krakowski. Well, it would be 50 hours then. One day of 
overtime, I believe.
    Mr. Hayes. So 10 hours in any one day.
    Mr. Krakowski. A six-day week.
    Mr. Hayes. Okay. So that would be 60.
    Mr. Krakowski. Right. You could. Yes, you could.
    Mr. Hayes. How many hours of overtime are being voluntarily 
worked by controllers?
    Mr. Krakowski. About 80 percent of the current overtime, 
which is about 2 percent system-wide, is voluntary where 
controllers sign up to do it.
    I have some facilities with virtually no overtime, some as 
high as 9 percent in some areas. Nine percent is too high, and 
we are working to get some staffing in those facilities, sir.
    Mr. Hayes. Being an airline guy, you know it is important. 
The fatigue factor for controllers is important, but it is just 
as important for the crews in the aircraft, and we haven't 
mentioned that today.
    Mr. Krakowski. Yes, and I would like to hand that over to 
Jim Ballough because he is working that issue not just for 
controllers but for the pilot community as well.
    Mr. Ballough. Yes, Mr. Hayes, we are working currently in 
the FAA. The Acting Administrator has asked us to look at this 
fatigue issue not just for controllers or pilots but across the 
board for mechanics, flight attendants as well.
    We are in the final stages of planning a symposium that 
should be conducted somewhere in the June time frame to where 
we will bring all of the academia together, industry 
stakeholders together, labor and really tee up the issue of 
fatigue and how we can manage it now.
    We know that we think there are science that is out there 
today that makes it doable, and so it is time to bring those 
parties together and to plan a strategy for how we use the 
fatigue science and apply it. We know that prescriptive flight 
and duty rules don't work. We know that they have served us 
well over the years, but we know now that we can make further 
progress to address this issue with fatigue.
    So we look forward to working this issue later this year 
and hope to have some very positive results and use that 
conference as a springboard to move forward to address fatigue 
issues.
    Mr. Hayes. Thank you for that.
    I would like to emphasize, as I have many times before, 
there are glide slopes out of service. There are localizers out 
of service. There are AWAS and ADIs and other important day to 
day, hour to hour safety devices and procedures that the FAA is 
not keeping up with. That is troubling me far more than what we 
are talking about today, as important as it is.
    Mr. Chairman, I look forward to the next panel because I 
want to hear. You all don't care what I think as a pilot as 
much as I want to hear the professionals speak to us from their 
perspective about what a pilot does, can and should do to be 
the number one runway incursion preventer in the whole process 
because very few examples. Tenerife is one example where there 
was no visibility and you could not see and be seen, but for 
the large majority, 95 plus percent, clear right and clear left 
is the number one preventive for runway incursions.
    Thank you, Mr. Chairman. I yield back.
    Mr. Costello. The Chair thanks the gentleman and recognizes 
the gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Well, thank you very much, Mr. Chairman. 
Because I didn't get here in time to hear the testimony of the 
witnesses, I didn't think I was going to ask any questions, but 
I have a couple of things that I am curious about.
    One is we have all been given a chart, and it says it is 
from the FAA, from the Air Traffic Control Organization, that 
runway incursions are less than half of what they were in 2001.
    But then, at the same time, we were given a briefing memo 
that says GAO reports that the rate of runway incursions in 
2007 has increased to 6.05 incidents per million operations. 
This is a 12 percent increase over 2006 and the highest number 
since 2001.
    I am a little confused as to which it is. Are the incidents 
cut in half as this chart shows, in other words, meaning that 
it has gone way down, or have they gone way up?
    Mr. Krakowski. Congressman, relative to the rate, you have 
to remember operations go up too, so rate is reflected against 
the number of operations in the NAS as well. But I think what 
is important to note on the last bar, the actual number of 
incidents, total incidents is up.
    Mr. Duncan. The problem, though, what has confused me is 
both of these things say they are per million operations, both 
the memo and the chart. I don't know. Anyway, go ahead.
    Mr. Krakowski. Okay. Well, I am not quite sure how GAO 
determined theirs.
    Gerald?
    Mr. Dillingham. Well, we used the FAA data.
    Mr. Krakowski. Right, okay.
    [Laughter.]
    Mr. Duncan. It is quite a difference.
    Mr. Krakowski. Yes, but these are the serious. These are 
the As and Bs here. These are the most serious runway risks.
    Mr. Duncan. All right. Well, maybe you could get an 
explanation or figure that out. It might be interesting for us 
to know which it is, whether they have gone way up or way down.
    Then you got my curiosity when, Mr. Sumwalt, I believe it 
was you that said that the controller is Lexington had only 
slept 2 hours in the last 24 hours. Was that due to his own 
personal, private behavior or did the FAA have something to do 
with that in the scheduling they had done?
    If the FAA is responsible for that, then that is something 
that I hope we have eliminated. That shouldn't happen any 
place.
    But if it is something that was just a matter on his own 
private time he stayed up, then there is not much we can do 
about that. I just was curious as to which it was. What would 
have caused him to sleep only 2 hours out of the last 24 before 
that happened, that accident happened?
    Mr. Sumwalt. Congressman Duncan, it was a combination of 
both things that you mentioned.
    The scheduling factors, he had worked a shift that had 
gotten off duty earlier in the day, 1:30 or 2:00 in the 
afternoon. Then he was off for his, I guess, eight hours, but 
then he did personal things during that time off, including 
going out and running and apparently only slept about two 
hours. Then he showed up to work again to work the shift in 
which the accident occurred, which I think that shift started 
around 11:00 at night.
    So it was a combination of the schedule that he maintained 
and the inability to manage his own personal schedule such that 
he could maximize opportunities for rest.
    Mr. Duncan. How common is something like that, Mr. 
Krakowski? Is this an aberration or how common is it that 
controllers get off and then only have eight hours between when 
they are due at work again?
    Mr. Krakowski. Let me answer this in a couple ways. If you 
are really going to study fatigue as we were just starting to 
do that at United Airlines before I retired, there is new 
science that we have now that really knows how to look at this 
in ways that 10 years ago we didn't have. It is applicable to 
controllers, pilots and everybody.
    If you are really going to study fatigue, it is everything. 
It is scheduling practices. It is what people do with their 
time off. It is how patterns of schedules are put together. 
That is what this conference that Mr. Ballough will be 
sponsoring later this spring is going to address to really take 
a scientific look at this.
    The other issue about fatigue that is a bit concerning is 
there is a lot of anecdotal stories about it, but the data are 
important.
    Mr. Duncan. Let me ask you this. What the staff is telling 
me is they are telling me this comes from a 221 air traffic 
control scheduling practice that the controllers themselves 
have asked for or want or is popular with them. Is that right?
    Is this happening because this is what the controllers 
want?
    Mr. Krakowski. We understand it is a popular scheduling 
practice, yes, but I think again if we can get into this spring 
to understand. You know popular scheduling practices, if you 
know how to rest and you know how to use your time off during 
those periods, it may or may not be a risk at all. So that is 
what we have to get into.
    The other part of this, as I mentioned earlier, the 
Aviation Safety Action Program that we want to start with the 
controllers is the kind of mechanism that allow us to take a 
look at just these sorts of issues. So I really hope we get 
that signed soon.
    Mr. Duncan. It seems to me there ought to be more time in 
between shifts than eight hours unless these controllers are 
sleeping there at the facility because by the time somebody 
leaves and drives home and does all the things that people 
ordinarily do, you could run into some problems there.
    Thank you very much, Mr. Chairman.
    Mr. Costello. I thank the gentleman.
    To clarify a point just so we understand, I know, Mr. 
Krakowski, you are saying that if the person knows how to rest. 
But if you are working 16 out of 24 hours, during that 8-hour 
period that you are off I am sure there are other personal 
things, family things that you have to attend to, that you just 
don't go home and get 8 hours sleep.
    So, regardless if it is the agency forcing the controller 
to work 16 hours in a 24-hour period or if it is on the part of 
the controller wanting to work that schedule, it seems to me 
that it is an issue that needs to be addressed.
    The other point that I would make to Mr. Duncan's question 
about is this increased or decreased between 2001 and 2006, 
regardless of how you look at the numbers, we do know for a 
fact that in the first quarter of fiscal year 2008 we have had 
10 severe runway incursions, just in the first quarter of 
fiscal year 2008. So it is an issue and is a problem, and again 
we are pleased that you are moving forward to make some 
progress.
    The gentleman from Missouri, Mr. Graves?
    The gentleman from North Carolina, Mr. Hayes, would like to 
be recognized for a comment.
    Mr. Hayes. Thank you, Mr. Chairman.
    We talked about the situation in Lexington, and I think it 
is important to understand there is an issue about the 
controller, but we haven't talked about what happened with the 
airplane.
    Mr. Krakowski, refer back to the time when you were flying 
in the line so that members of the panel and the audience can 
understand. When that aircraft pushed back, the first officer 
and the captain, how would they brief each other?
    I mean I know, but I think it is important for the record. 
This is not just about controllers. What did the pilots do that 
led them to take off on an unlighted short runway?
    Here is Lexington. Long runway, short runway. Lighted, 
unlit. What happened when they pushed back? What did they say 
to each other? Where did this go wrong?
    Mr. Krakowski. So I would say that based on what I know of, 
and I think Mr. Sumwalt actually would be able to give you the 
detail on this. So I will defer to him. But I think the cockpit 
did have some distraction going on.
    Robert?
    Mr. Hayes. Well, before you answer, let me ask the question 
a different way. When done right, what would the brief between 
the captain and the first officer have sounded like to get to 
the correct runway and to make the right decision? Obviously, 
that came apart.
    Mr. Krakowski. A crew has to work together. The captain is 
in command of the aircraft. The captain sets the atmosphere in 
the cockpit for running your checklist, doing your briefings 
efficiently and making sure you are going in the right 
direction.
    At least at my company, you had the taxi chart in front of 
you. You briefed these routes. You validated that the heading 
of the aircraft was on the assigned runway before you actually 
took off.
    So that is how you do it right. You have really good 
cockpit procedures reinforced by training and reinforced by 
good training and good checking standards.
    Mr. Hayes. But that obviously broke down.
    Do you want to comment, Mr. Sumwalt?
    Mr. Sumwalt. I would, Congressman, because I am just a 
neophyte compared to Captain Krakowski. He had 33 years with 
the airline. I only had 24, most of which were based in 
Charlotte Douglas International Airport.
    So the NTSB did determine the probable cause of the Comair 
accident was to be the failure of the flight crew to use 
available cues and aids to identify the airplane's location on 
the airport surface during taxi and their failure to cross 
check and verify the airplane was on the correct runway.
    Contributing to the accident was, in fact, distractions 
that the crew enabled themselves to get into due to violations 
of the sterile cockpit rule. We also did take an opportunity to 
point out that if the FAA had required that all runway 
crossings be authorized by specific air traffic control 
clearances. We listed that as a contributing factor as well.
    Mr. Hayes. Okay. Thank you, Mr. Chairman.
    I think it is just important to know what that part of it 
is. If there are two pilots, they are going to say: Where is 
the runway? How are we going to get there. That is just common 
language, and that is where we had a major breakdown.
    The controller issue is a part of it, but again that is 
critically important.
    Once you get where you think you are supposed to go, the 
number on the end of the runway should correspond with your 
magnetic compass which, oh, by the way, you are going to check 
with your directional gyro which should be the same number. If 
any of the three don't agree, something is wrong here.
    Mr. Costello. The final comment or question is the other 
gentleman from North Carolina. North Carolina is getting a lot 
of time today.
    Mr. Coble. You are very generous to us, Mr. Chairman. I 
appreciate that.
    I want to be very brief. I want to extend the gentleman 
from Tennessee's questioning regarding facilities for berthing.
    I complete my tour, and I get eight hours off. My house is 
2 miles away. Do I have facilities on board to sleep before I 
stand my next watch?
    Mr. Krakowski. Typically, no, sir.
    Mr. Coble. Typically, no?
    Mr. Krakowski. At the facilities.
    Mr. Coble. Thank you.
    I thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman and thanks all 
of the witnesses on our first panel.
    Mr. Sumwalt, you had a final comment?
    Mr. Sumwalt. I would, sir, and thank you for the extra 
time.
    The question has come up, has the NTSB established a causal 
link between certain runway incursions and fatigue?
    In fact, in our April 10th safety recommendation letter 
that we issued the recommendations that General Scovel 
mentioned, we did point out four runway incursions, four runway 
incidents that provided clear and compelling evidence that 
controllers are sometimes operating in a state of fatigue 
because of their work schedules and because of their poorly 
managed utilization of rest periods between shifts.
    So we have found runway incursions that we have attributed 
to controller fatigue.
    Thank you.
    Mr. Costello. The Chair thanks you and thanks all of you on 
our first panel for being here and testifying, for your 
testimony today. Thank you.
    The Chair will now ask the members of the second panel to 
come forward in just a few minutes. I will do the introductions 
right now.
    We are expecting in about 15 minutes a vote on the Floor of 
the House. I don't know how many votes. So we will try and get 
our second panel at the witness table. I will do introductions 
now as we are making the transition.
    The first witness that I will introduce is Captain John 
Prater, the President of the Air Line Pilots Association; Mr. 
Patrick Forrey, the President of the National Air Traffic 
Controllers Association; Mr. Basil Barimo who is the Vice 
President of Operations and Safety at the Air Transport 
Association of America; Mr. Greg Principato, the President of 
the Airports Council International-North America; Mr. John 
Duval, who is the Airport Safety and Security Coordinator for 
Beverly Municipal Airport; Mr. Phil Boyer, President of AOPA; 
and Mr. T.K. Kallenbach, who is the Vice President at Honeywell 
Aerospace.
    Mr. Prater, your time is up. No. I am just kidding.
    [Laughter.]
    Mr. Costello. Mr. Prater, you are recognized under the 
five-minute rule. Please begin your testimony.

 TESTIMONY OF CAPTAIN JOHN PRATER, PRESIDENT, AIR LINE PILOTS 
 ASSOCIATION; PATRICK FORREY, PRESIDENT, NATIONAL AIR TRAFFIC 
   CONTROLLERS ASSOCIATION; BASIL J. BARIMO, VICE PRESIDENT, 
 OPERATIONS AND SAFETY, AIR TRANSPORT ASSOCIATION OF AMERICA; 
  GREG PRINCIPATO, PRESIDENT, AIRPORTS COUNCIL INTERNATIONAL_
   NORTH AMERICA; JOHN K. DUVAL, A.A.E., AIRPORT SAFETY AND 
  SECURITY COORDINATOR, BEVERLY MUNICIPAL AIRPORT AND FORMER 
DEPUTY DIRECTOR FOR AVIATION AND OPERATIONS, MASSACHUSETTS PORT 
AUTHORITY AND AMERICAN ASSOCIATION OF AIRPORT EXECUTIVES; PHIL 
BOYER, PRESIDENT, AIRCRAFT OWNERS AND PILOTS ASSOCIATION; T.K. 
 KALLENBACH, VICE PRESIDENT, MARKETING AND PRODUCT MANAGEMENT, 
                      HONEYWELL AEROSPACE

    Mr. Prater. Thank you and good afternoon, Mr. Chairman, 
Ranking Member Mr. Petri, Members of the Subcommittee. Thank 
you for the opportunity to provide the pilots' perspective on 
runway safety.
    As you know, our pilots operate in complex airport 
environments every day. They fly in all types of adverse 
weather and with limited visibility conditions. They complete 
the demanding task of a safe landing over and over, often after 
being on duty for more than 16 hours and being awake for more 
than 20 hours.
    All of these tasks demand vigilance and high situational 
awareness. These are the challenges we face every day in 
delivering our passengers safely to their gate.
    But the risk for a runway incursion in this environment is 
constantly increasing. It is an issue that must become a 
national aviation safety priority and ALPA thanks the Chairman 
for putting it onto the Subcommittee's agenda.
    According to the FAA's statistics, during the last three 
months of last year, there was an average of 2.5 runway 
incursions every day in the United States, providing the 
potential for a catastrophe. The FAA categorizes this risk as 
unacceptable.
    We agree, but I am taking it a step further. This rate of 
occurrence is inexcusable.
    The FAA categorizes runway incursions as either a pilot 
deviation or an operational error, but those classifications 
don't tell the whole story. While it may be convenient to 
assign blame due to the pilot or the controller, it doesn't 
address the root of the problem. We must understand why these 
runway incursions take place and then put mitigations into the 
system so that we can help pilots and controllers avoid these 
errors.
    Dozens of experts in several countries have studied the 
runway incursion risk over the years and devised mitigations 
that can greatly lessen the risk in ground operations today. In 
fact, according to the Commercial Aviation Safety Team, the 
problem can be reduced by as much as 95 percent with the 
implementation of new technologies, new training and 
operational techniques that increase both pilots' and 
controllers' situational awareness.
    Technological solutions include cockpit moving map displays 
similar to the GPS device that many people have in their cars 
today, the integration of ADS-B to enable pilots and 
controllers to track all aircraft and vehicles on the surface 
and up to 1,000 feet above ground level, automatic runway 
occupancy alerting and digital datalink clearances that are 
then displayed on the cockpit moving map.
    Most airline pilots, however, are still flying aging 
airlines with none of this technology available to them.
    Other ALPA-recommended improvements include the 
installation of red runway status and hold lights. These simple 
and inexpensive lights automatically provide direct indication 
of runway status and warn pilots of landing and departing 
aircraft. With ALPA's help, the MIT Lincoln Laboratory tested 
this system at the Dallas-Ft. Worth International Airport and, 
since its implementation in 2005, runway incursions there have 
decreased by 70 percent.
    Not all runway safety solutions involve high tech gadgets. 
Some low tech solutions involve something as simple and cheap 
as a can of paint which can be used to improve our runway and 
taxiway markings.
    The FAA issued an advisory circular in 2005, requiring that 
the 75 busiest airports enhance their taxiway centerline 
markings near runway intersections by June of this year. All 
but four of these airports have completed that requirement.
    But our pilots and our passengers fly to hundreds of 
airports, and ALPA strongly recommends that these airport 
surface markings become standard for all Part 139 airports. 
That is a total of 566 airports.
    Sixty-two of these airports have voluntarily made these 
improvements, unfortunately, some spurred by fatal accidents. 
That still leaves roughly two-thirds of America's airports that 
need better ground markings for pilots.
    Some airports have found that installing perimeter taxiways 
also reduces runway incursion risk. Atlanta Hartsfield is a 
good example of that. They have eliminated 600 runway crossings 
a day and reduced delays by 60 percent.
    Our union is doing its part for runway safety. ALPA is 
reaching out to our 60,000 pilots in both the United States and 
Canada through a new communications initiative that we call for 
Hold Short for Runway Safety. It is designed to educate pilots 
on what we can do now to prevent runway incursions.
    Our initiative includes a web site, educational material, a 
series of newsletters going out, starting this Friday, and we 
will keep them sending them out to try to keep the focus on 
runway safety.
    In coordination with the FAA, ALPA and United Airlines 
produced a video for a training video to highlight the problems 
and how we can reduce operational errors.
    But in order to adequately prepare for the increase in 
airport operations and the increased runway incursion risk, 
ALPA urges the government to commit proper funding to improve 
our National airspace System. Every stakeholder and every 
passenger deserves it. They deserve it now.
    Thank you, sir.
    Mr. Costello. Thank you, Captain Prater.
    The Chair now recognizes Mr. Forrey under the five-minute 
rule.
    Mr. Forrey. Chairman Costello, Ranking Member Petri and the 
distinguished Members of the Subcommittee, let me begin by 
first thanking the leadership of the Transportation Committee 
in passing a comprehensive FAA reauthorization bill and package 
in a timely fashion, moving it through the House last September 
and the bipartisan support of 267 Members of this House.
    I further applaud your efforts earlier this week in passing 
a short term extension rather than putting this important 
legislation off until next year.
    It is NATCA's hope that the Senate will yield to the House 
and forego efforts to move an extension that goes beyond June 
30th. Our fear is that doing so would undermine the hard work 
this Committee as well as of the Senate Finance and Commerce 
Committees and fail to address the immediate and future needs 
of the National Airspace System.
    Aviation is vital to this Nation's economy, and H.R. 2881 
maintains important provisions to keep our system the safest 
and most efficient in the world.
    NATCA urges the Senate to take FAA reauthorization out of a 
holding pattern and act swiftly on passing a comprehensive long 
term bill.
    Turning to the topic of today's hearing, NATCA's mission is 
to preserve, promote and improve the safety of air travel 
within the United States and to serve as an advocate for air 
traffic controllers and other aviation safety professionals.
    Air traffic controllers and pilots, more than anyone else 
here today, are responsible for the safety of the runways at 
America's airports.
    NATCA has been trying to direct attention to the decreasing 
safety margins in our skies and on our runways for years. We 
are no longer alone. In the past few months, a host of 
independent Federal watchdogs have joined the chorus of rising 
concerns about aviation safety.
    In November, the GAO issued a report that warned of a high 
risk of a catastrophic runway collision occurring in the U.S. 
In December, the Transportation Department Inspector General 
launched an investigation on the role that workplace conditions 
played in several close calls at the FAA facilities in 
Illinois. And, the NTSB recently added runway incursions and 
incidents caused by air traffic controllers fatigue to their 
2008 list of most wanted aviation safety improvements.
    In addition, last April, NTSB Chairman Rosenker called on 
both NATCA and the FAA to work together to combat controller 
fatigue. NATCA's response was to welcome that recommendation 
and to work with the agency and offered our assistance to help 
the FAA to make our runways safer. The agency's response, 
however, was to not follow the NTSB's Chairman's recommendation 
to work with the controllers but rather to create a working 
group that didn't include NATCA.
    Despite the FAA's sound rejection of our input, NATCA 
offers its recommendations for improving runway safety today to 
the Aviation Committee:
    First, because each airport represents unique challenges 
which negate the usefulness of broad, universal solutions, 
NATCA recommends the creation of a runway incursion prevention 
committee for each airport. These groups would be comprised of 
the local stakeholders including pilots, air traffic 
controllers, airport management, vehicle driver operators and 
the FAA.
    Second, NATCA recommends that controller staffing at our 
Nation's FAA facilities be adequately addressed. Today, there 
are 1,500 fewer fully certified controllers than there were on 
9/11, leaving fewer eyes to watch more planes, and the result 
is increased controller fatigue.
    If the FAA would return to the bargaining table where the 
parties left off and negotiate in good faith with NATCA, the 
effort would make staying in the FAA more attractive to both 
newly hired controllers and those eligible for retirement. 
Unfortunately, the current rate of controller attrition is 6.2 
a day, and the system can't sustain that rate much longer.
    Third, NATCA's recommendation that the FAA work in 
cooperation with the union in the development of deployment of 
new technology. Under the liaison program, the FAA and NATCA 
work side by side in creation of new technologies. ASDE-X, an 
effective surface surveillance system is a product of that 
collaboration.
    NATCA recommends the deployment of this technology in all 
airports throughout the Country with mid to high traffic 
density. NATCA further recommends that the liaison program 
dismantled by the FAA in 2005 be reinstituted.
    Fourth, because runway incursions often occur when the 
layout of a taxiway forces aircraft to cross runways on route 
to a second runway or gate, NATCA recommends that end-around 
taxiways be constructed and utilized at all airports where such 
construction is possible.
    Mr. Chairman, NATCA is not alone in sounding the alarm on 
passenger safety. The NTSB and the GAO have determined that the 
threat of controller fatigue is real.
    The increase in runway incursions is real too. There have 
been 12 serious A and B runway incursions in the first 4 months 
of fiscal year 2008 compared to 3 during the same time last 
year.
    The warnings of the GAO, the IG and the NTSB should not go 
unheeded. NATCA stand ready, willing and able to offer real 
solution. We can only hope that the FAA is really listening.
    I, once again, thank the Subcommittee for the opportunity 
to testify here today. I look forward to answering whatever 
questions you might have.
    Mr. Costello. The Chair thanks you, Mr. Forrey.
    Mr. Barimo, do you think you can get your testimony in, in 
five minutes?
    Mr. Barimo. Yes, sir.
    Mr. Costello. Very good. You are recognized.
    Mr. Barimo. Good afternoon, Mr. Chairman and Members of the 
Subcommittee. My name is Basil Barimo, and I am the Vice 
President of Operations and Safety at the Air Transport 
Association of America. Thank you for the opportunity to join 
you today and discuss runway safety issues.
    Airlines have been focused on reducing runway incursions 
since well before it was in vogue and appreciate the 
Subcommittee's interest in this matter. Runway incursions are a 
serious threat to civil aviation safety both to airlines and to 
general aviation, but we are making progress.
    I would like to concentrate my remarks today on three 
areas: first, on the data as it pertains to serious commercial 
incursions, you heard the definitions earlier; second, on our 
strategy for achieving these improvements; and third, actions 
that are underway to reduce the risk of incursions.
    Before proceeding further, though, I would like to mention 
that we have only yesterday reemphasized our commitment to 
improve safety in the airport operating environment. On 
Tuesday, ATA member airlines, ALPA, FAA and other interested 
members of the aviation community held a Runway Safety 
Awareness Day. Roughly 70,000 pilots represented by 50 airlines 
received a letter from senior management, reinforcing the 
industry's collective commitment to improving runway safety.
    As a starting point in this discussion, what do the FAA 
data tell us? According to the FAA, the frequency of serious 
runway incursions, A or B, have decreased steadily since 2001 
with commercial operations accounting for approximately a third 
of the total. The chart on page two of my written statement 
depicts this data.
    But narrowing the focus further, the number of serious 
incursions involving commercial operations that were 
attributable to pilot deviation has also declined.
    How did we achieve these improvements? In this, as with so 
many other safety-based endeavors, the aviation community looks 
to data to identify what aspects of a problem it needs to 
concentrate on. We can call upon multiple sources of safety-
related information like ASAP and FOQA and CAST and ASIAS to 
better understand the nature and the extent of the risks that 
confront us.
    Our analytical abilities have advanced to the point where 
we can assess future vulnerabilities and therefore don't have 
to rely exclusively on what has happened in the past. This 
means that in the context of airport surface operations, we 
cannot only spot overall trends but can pinpoint specific 
locations that are prone to incursions.
    The decline in serious runway incursions is a result of 
well thought out collaboration among stakeholders. Recognizing 
this achievement, of course, does not mean that we should be 
satisfied with it. We most emphatically are not. But it does 
give us the confidence to work toward greater improvements. 
That is the task before us.
    What actions are underway to reduce the risk of incursions? 
Because of the data evaluation efforts, we understand far 
better the airport surface operating environment than we ever 
have.
    The more informed perspective has resulted in an array of 
initiatives designed to decrease runway incursion risk, 
including elevating the awareness of risks, reducing flight-
crew distractions during the taxi phase of flight, emphasizing 
the use of standardized ATC verbiage and clearances, enhancing 
pilot training, leveraging the work of the existing Runway 
Safety Action Teams, enhancing signage, lighting and markings, 
reconfiguring taxiways to eliminate confusing intersection and 
runway crossings.
    In addition to these initiatives, several emerging 
technologies will improve the operating environment, things 
like ASDE-X, cockpit moving map and head-up displays, automated 
lighting systems and, finally, we all look to ADS-B to provide 
greater airport surface safety improvements. Each of the 
foregoing is an important initiative that will contribute to 
improving safety.
    However, we believe that three items are worthy of special 
attention as short-term, high priority initiatives, and they 
are:
    Continuing to eliminate cockpit distractions for crews 
during the taxi-out and taxi-in phase;
    Continuing to eliminate confusing taxiway and runway 
intersections, adding signage and lighting, and introducing 
technologies that link ASDE-X to TCAS and put the warning 
directly into the flight deck; and
    Finally, tapping into critical safety information by 
implementing an ASAP program for air traffic controllers, 
similar to those used so effectively within the airline 
community.
    These three initiatives can be accomplished in the short 
run and promise to improve the safety of the airport and 
operating environment. They shouldn't be regarded as 
supplanting the other initiatives that I have mentioned but are 
worthy of further immediate emphasis.
    The Subcommittee's interest in the issue of runway 
incursions is always welcome and always timely. The threat is 
real. The need for continued action is indisputable. The 
aviation community remains ready and committed to reducing the 
risk of runway incursions.
    Thank you.
    Mr. Costello. Thank you, Mr. Barimo.
    We have four to five votes on the Floor right now, which 
means that the Subcommittee will stand in recess until we would 
ask you to be back by 4:20, 20 minutes after 4:00.
    So if you want to get a cup of coffee, we will be back here 
at approximately 4:20. We would ask you to be here. We would 
ask our witnesses to stay, to those of you who have already 
given your testimony, so that Members have the ability to ask 
questions.
    The Subcommittee will stand in recess.
    [Recess.]
    Mr. Costello. The Subcommittee will come to order.
    First, let me say we thought we would be back by 4:20, but 
strange things happen when you are having fun. We had a couple 
of extra votes that we didn't count on.
    The Chair now recognizes, under the five-minute rule, Mr. 
Principato.
    Mr. Principato. Chairman Costello, Ranking Member Petri, 
thank you for allowing ACI-North America the opportunity to 
participate in this important hearing on runway safety.
    As you know, I am Greg Principato, and I am the President 
of Airports Council International-North America. Our 360 member 
airports enplane more than 95 percent of the domestic and 
virtually all of the international passenger and cargo traffic 
in North American, and nearly 400 aviation-related businesses 
are also members of ACI.
    We applaud the Committee for its tireless work on H.R. 
2881. The resources the bill provides will fund many critical 
projects to bring important safety benefits. We thank you for 
your leadership and commitment to both airports and the 
aviation industry, and we commend both you and the House of 
Representatives for passing this bill.
    In fiscal year 2007, the FAA reported 24 serious runway 
incursions out of more 61 million operations. Although the 
Nation's airport runways remain safe, reducing the risk of 
runway incursions is a top priority. Airports have taken a 
particularly aggressive stance in addressing this safety 
concern.
    Last August, more than 40 aviation leaders including ACI-
North America, participated in the call to action. The purpose 
of the call to action was to reach consensus on a number of 
short, medium and long term initiatives that could be 
undertaken to further improve the safety of operations at 
America's airports.
    By June 30th, 2008, the FAA was requiring 75 large and 
medium airports to paint red markings on the taxiway hold line 
to identify the approach of a specifically marked runway. FAA 
is also requiring these airports to improve centerline painting 
and markings on all airport taxiways to give differential color 
distinctions to ensure taxiways are easily seen by taxiing 
pilots at night or under poor weather conditions.
    To date, actually, the number is 72 out of 75. Another has 
complied. Airports have completed this, and three airports will 
be finished by May, ahead of the deadline.
    Now the FAA is not requiring new taxiway painting and 
markings for smaller airports certificated under Part 139. 
However, the call to action plan calls on those smaller 
airports to voluntarily do so, and I am pleased to say that by 
the end of this year 251 will have done so.
    Midterm runway safety actions specific to airports include 
the accelerated installation of runway status lights, which use 
runway and taxiway centerline illuminated lights to warn pilots 
of potential runway conflicts and prompt them to notify the 
tower before proceeding if a contradicting clearance has been 
issued.
    The FAA has tested runway status lights at Dallas, and a 
DOT Inspector General report or audit showed that runway 
incursions on that test runway at DFW decreased by 70 percent 
after runway status lights were installed. Due to this success, 
in early December, DFW began construction of runway status 
lights on two additional runways.
    Additional midterm action includes final approach runway 
occupancy status lights. FAROS is a test concept that flashes 
the existing lights to give direct notification to the pilots 
that the runway is occupied and unsafe for landing. Test 
airports include Dallas and Long Beach.
    Longer term actions include full deployment of ASDE-X by 
2010, moving map displays in cockpits, ADS-B In and Out as well 
as cockpit display of traffic information, things you have 
heard about already today.
    Independent of the FAA requirements and technological 
evaluations, airports are taking independent action to enhance 
runway safety. Last year, Atlanta completed its end-around 
perimeter taxiway, essentially eliminating 650 daily runway 
crossing, 650. Minneapolis, Grand Rapids and Pittsburgh have 
constructed tunnels under their respective runways to eliminate 
the need for vehicles to cross runways on the surface.
    Airports also continue to provide recurrent training for 
all airport employees who operate vehicles on the movement area 
of the airfield.
    In addition to airport-specific actions, we recently joined 
the Commercial Aviation Safety Team, or CAST, which was 
discussed earlier, a cooperative voluntary partnership 
consisting of all commercial aviation stakeholders with a 
mission to increase safety, using an integrated, data-driven 
approach based on analyzing accident causes, identifying ways 
to make positive changes and implementing improvements to help 
address runway safety and incursion issues.
    Before wrapping up, let me also say we have heard a lot 
about various systems that I have just mentioned and earlier 
people have mentioned. I think it is important that down the 
road we look for consistent applications and uniform deployment 
of those systems.
    Pilots work in a lot of different airports. They don't just 
work in one airport. They go from airport to airport. It is 
particularly important that when they come to an airport, what 
they see is consistent from airport to airport eventually, 
especially a lot of focus on the larger airports. But a lot of 
regional pilots will fly back and forth between a large hub and 
a smaller non-hub, six or seven or eight times a day, and 
having that consistency is important.
    So I conclude by thanking you for holding this hearing and 
allowing us to participate.
    Mr. Costello. We thank you for being here and giving us 
your testimony today.
    The Chair now recognizes Mr. Duval.
    Mr. Duval. Thank you, Chairman Costello, Ranking Member 
Petri and Members of the House Transportation and 
Infrastructure Subcommittee on Aviation. Thank you for inviting 
me to participate in this hearing on runway safety.
    I am John Duval, the Airport Safety and Security 
Coordinator at Beverly Municipal Airport, a GA airport and a 
reliever airport located approximately 22 miles north of 
Boston. I am testifying today on behalf of Beverly Airport and 
the American Association of Airport Executives.
    Mr. Chairman, before I proceed, I would like to thank you 
and the other Members of this Committee for your leadership on 
H.R. 2881, the FAA Reauthorization Act of 2007. Airports are 
particularly grateful that the bill would raise the PFC cap to 
$7 and increase AIP funding by $100 million a year. These two 
funding provisions will help airports improve safety, prevent 
runway incursions and accommodate increasing demand.
    Since the Senate has yet to complete its action on a multi-
year FAA reauthorization bill, I would also like to thank you 
for helping to pass a short term extension bill yesterday.
    As Members of this Subcommittee well know, AIP contract 
authority has already expired and the aviation excise taxes are 
slated to expire at the end of this month. I hope the Senate 
will follow your lead and approve H.R. 5270, so airports can 
begin to receive the funds that they need for critical safety 
projects.
    Today, we are here to focus on runway safety. As passenger 
numbers continue to rise and takeoffs and landings increase, it 
is imperative that we redouble our efforts to improve runway 
safety. I would like to describe just a few of the steps that 
airports are now taking to improve runway safety and some of 
the technology that could help prevent further runway 
incursions.
    Airports around the Country are using the enhanced taxiway 
centerline markings and surface hold position signs to prevent 
runway incursions. Commercial airports with more than 1.5 
million enplanements per year are required to have these 
markings installed by June 30th.
    Standardization, as you have already heard, as long been a 
crucial tenet at all of our commercial airports, and I commend 
the FAA for recently issuing a draft advisory circular that 
would extend these enhanced surface markings to all Part 139 
airports.
    Airports are also beginning to add perimeter taxiways to 
reduce runway crossings and the potential for runway 
incursions. The Atlanta Airport installed an end-around taxiway 
earlier this year, and according to the FAA the new taxiway is 
expected to eliminate nearly 700 runway crossings per day.
    DFW is also engaged in a perimeter taxiway project that 
will include perimeter taxiways in all four quadrants of the 
airport. The first one is expected in the southeast quadrant to 
be completed by the end of this year. When all four are 
completed, this will eliminate as many as 1,700 runway 
crossings per day at DFW.
    Both taxiway projects will help to prevent runway 
incursions at two of the busiest airports in the United States.
    The FAA points out that training is one of the keys to 
reducing the severity and frequency of runway incursions. I 
agree, and I am very proud of the computer-based interactive 
employee training system that AAAE has developed to better 
train airport and airline employees and other airport tenants. 
AAAE has delivered nearly 1 million training sessions at 55 
airports around the Country.
    IET training programs are highly effective in training 
because employees receive a video component that features the 
actual work environment at their airport. Some of the topics 
include movement and non-movement driver training area as well 
as airfield safety and incursion prevention.
    One of the most promising technology improvements to 
prevent runway incursions is the runway status light system. 
The system uses radar to anticipate the use of a runway by an 
arriving or departing aircraft and then controls a series of 
lights to provide information to pilots and vehicle drivers 
regarding the runway status.
    The FAA has been testing this at DFW and San Diego. Runway 
incursions, as you have heard, in the test case has decreased 
by 70 percent on the test runway at DFW. I hope that FAA will 
continue to work with airports and other aviation stakeholders 
in an effort to expedite the deployment of this system.
    We should also use new technology to improve runway safety 
at smaller airports. Toward that goal, the FAA is testing two 
low cost ground surveillance systems at Spokane Airport that 
could improve runway safety at small to medium size airports. 
One uses millimeter wave sensors. The other uses X-band radar 
to detect motion on the airports runways and taxiways.
    I am encouraged by reports that these systems are 
effective, relatively inexpensive and easy to install. I hope 
the additional evaluations will yield positive results and that 
the FAA will be able to expedite the deployment of this system 
as well.
    Mr. Chairman and Members of the Aviation Subcommittee, 
thank you again for inviting me to attend today's hearing on 
runway safety, and I look forward to answering any of your 
questions.
    Mr. Costello. We thank you, and the Chair now recognizes 
Mr. Boyer under the five-minute rule.
    Mr. Boyer. Well, thank you, Mr. Chairman, and thank you for 
the witness rest period. I must admit that I did not sleep or 
use it for personal time, but if I am a little incoherent, that 
is probably the reason.
    I am here today, unlike usually, to represent not only 
AOPA, of which I am the President, but the AOPA Air Safety 
Foundation. I can think of no single organization outside of 
government, perhaps in government when I am through here, that 
has spent more time, energy and materials and dollars on runway 
safety.
    First of all, we haven't talked at all about GA statistics. 
So I am not going to spend a lot of time. It is in our 
testimony. I just want to put up one graph.
    With all due respect to the end of the table, this isn't a 
competition, but just to put it in perspective. You have been 
hearing a lot about air carrier airports and airline pilots. 
There are about 79,000 airline pilots, 273 pilot deviations 
during the three-year period covered by the FAA numbers.
    There are almost a half a million GA pilots and, yes, there 
are more deviations, about 580. But if you look at the ratio of 
GA pilots, it is a group that has a lower propensity to this 
kind of an accident and many times due particularly to the 
types of airports they use.
    One runway incursion, whether it be by an airliner, a GA 
airplane or a combination or a ground vehicle, I have to say, 
800 Independence Avenue, we, and I put in that everyone at the 
table--airports, ground operators, airline pilots, airlines 
themselves--we do have a problem because the statistics should 
be at zero if they could be, and that is what we all strive to 
do.
    I want to concentrate on just one area, and that is FAA 
leadership. It came out in the IG. It came out in the GAO 
testimony you heard.
    I am going to go off this slide just a little bit and talk 
about 1997 when then-FAA Administrator Jane Garvey called me 
when she realized this was one of the five top issues she had 
to deal with during her administration and said, ``Phil, can 
you do something? AOPA can work so much faster than the FAA.''
    We stepped in at that time, and we did a lot of things. I 
provided a packet for the Committee of all those things we have 
done.
    I have to tell you, the Administrator at that time, the 
late nineties, she formed a taskforce. I was on it. The head of 
ALPA was on it. Others were on it.
    She met with us personally almost every single month. We 
looked at the metrics together.
    She said, what are you doing? I don't want to hear the BS. 
I want to know what you are actually doing.
    The FAA embarked on what I would say in my 18 years was the 
biggest effort on safety that I have seen them undertake. The 
program was well funded. Other divisions of FAA, and they will 
tell you this today, were jealous of the kind of money this 
project was given.
    Regional meetings were held around the Country with the 
airports that my two friends here to the right represent, with 
the airlines, pilots that went to those airports--I remember 
Los Angeles which had a language problem, et cetera--and with 
the GA community.
    But it all boils down to just what you and Chairman 
Oberstar said in your rebuttal to the USA editorial today. It 
is not about aviation infrastructure having a lack of money. 
You were talking about and the words were FAA leadership.
    I can even remember the name of the person who headed the 
program back in 1997.
    But then it sort of dropped off the radar map. Frankly, as 
a group that has done a lot with aviation and runway safety, 
when you are not being prodded, when you are not being asked 
for more like we were for those five years, it went off the 
table.
    So what have we done? Well, we have educated our pilot 
members on, hey, the House bill is a good bill for the FAA 
financing. The Senate bill has a few problems. We have been 
spending our time at things like that.
    Well, you refocused them with the GAO study. The FAA got 
your attention again, but frankly let's call a spade, a spade. 
We haven't had the FAA's leadership on this issue and, believe 
me, industry is ready to go. We have been ready to do all kinds 
of things.
    I want you to look, as you look at the solution list, at 
the low tech things. You have heard a lot of high tech things 
that will take years to happen. There are a lot of low tech 
things too.
    We need those AIP funds that you have put in your bill. 
This is just a shot of taxiway. If you look below there in the 
lower right, no one with a propeller or a turbine aircraft 
wants to go across fog like that, and they are waiting for AIP 
funding to become available. Hopefully, the Senate matches what 
you did. We can get some of that started.
    In the end, I just want to say we are here. We are ready to 
help. We are ready to take all the things we have done, like 
our magazine where we bound in 400 runway safety brochures in 
the past.
    We certainly are getting the message now from your 
Committee, and we certainly see now that the FAA in the earlier 
panel will respond.
    Thank you.
    Mr. Costello. The Chair thanks you and recognizes Mr. T.K. 
Kallenbach.
    Mr. Kallenbach. Thank you, Mr. Chairman.
    Mr Boyer, I think you got plenty of rest. You didn't appear 
fatigued to me.
    Thank you, Mr. Chairman, Ranking Member Petri, Members of 
the Subcommittee. Good evening.
    My name is T.K. Kallenbach. I am the Vice President of 
Marketing and Product Management for Honeywell Aerospace, and 
my responsibilities include development and deployment of 
safety technologies for Honeywell.
    Runway safety is not a new concern, but as our Nation's 
skies and runways become more crowded, one that absolutely 
requires new solutions. We can build on existing technologies 
to implement these solutions both in the short and long terms. 
This will require active and vigorous support from the FAA, 
aircraft operators, airports and manufacturers, and perhaps 
most critical will be your continued oversight and vigilance to 
hold everyone's feet to the fire to get this done in a timely 
fashion.
    Mr. Chairman, I come before you representing Honeywell's 
history of addressing NTSB safety recommendations, and we are 
proud of those accomplishments, proven solutions that have 
saved lives.
    From the 1970s through the 1990s, the leading cause of 
aviation accidents was controlled flight into terrain or CFIT. 
Since the introduction of our Enhanced Ground Proximity Warning 
System, or EGPWS, CFIT accidents have dropped over 500 percent 
and, most importantly, not one aircraft operating with our 
system has been involved in a CFIT accident.
    Today, I want to show you that similar solutions are 
available to address runway safety issues and endorse some of 
the technology comments from NTSB, GAO and FAA. There are a 
couple of solutions available now that assist pilots in 
tracking their position on the airport surface.
    One solution is Honeywell's Runway Awareness and Advisory 
System, or RAAS. RAAS provides verbal announcements over the 
cockpit's audio system, indicating the aircraft's position 
relative to the runways, allowing pilots to remain heads up and 
visually alert to immediate surroundings. RAAS is a software 
upgrade to the EGPWS computers that are installed in over 95 
percent of the commercial aircraft.
    RAAS is FAA-certified and has been incorporated in over 
2,000 aircraft that have already been upgraded. You heard RAAS 
announcements on the GAO video that was used earlier.
    Another short term solution is moving map displays. They 
provide pictures of the airport's runways and taxiways with a 
symbol indicating where the airplane is located. Like RAAS, 
airport moving maps improve pilots' situational awareness and 
the systems are complementary with RAAS providing verbal cues 
and the moving map matching them up with a picture of their 
position.
    Short term solutions help pilots avoid placing their 
airplane in runway incursion situations. The longer term 
objective is to provide pilots with better information about 
what other aircraft are doing and warn pilots and controllers 
simultaneously when a collision is imminent. We call this 
breaking the chain of events that could ultimately lead to an 
accident.
    Today's surface detection systems generate alerts only for 
air traffic controllers. With the aircraft traveling at high 
rates of speed, the seconds needed for the verbal relay between 
controller and pilot can be the difference between a 
catastrophic collision and safe resolution. Consider that an 
aircraft on approach covers a quarter mile in six seconds.
    Honeywell and Sensis Corporation, the FAA's supplier for 
ASDE-X, have worked in partnership to develop an integrated 
alerting solution. In our prototype system, as you saw in the 
testimony from Dr. Dillingham from GAO, alerts are provided 
directly and automatically to pilots, maximizing the time 
available to resolve the incursion before an accident. This 
technology was successfully demonstrated to senior FAA and NTSB 
officials in the summer of 2007 in Syracuse, New York.
    Another longer term solution involves the deployment of 
Automatic Dependent Surveillance-Broadcast, or ADS-B. As more 
aircraft are modified to broadcast and receive this 
information, the ability to identify potential conflicts 
becomes viable.
    While the FAA's currently proposed rule doesn't require 
aircraft to broadcast their ADS-B information until 2020, FAA's 
traffic information service can accelerate the practical use of 
aircraft-based incursion detection alerting.
    Mr. Chairman, I described a series of short and long term 
solutions for improving runway safety. The key question is: 
When?
    Accelerating the deployment requires a cooperative effort 
among a number of stakeholders, and Honeywell recommends this 
Committee aggressively pursue the following three actions:
    One, strongly encourage the adoption of better pilot 
situational awareness capabilities including the preparation of 
certification criteria and financial incentives for equipping.
    Two, accelerate the implementation of traffic information 
service at airports throughout the National Airspace.
    Three, require regulatory and procedural changes that will 
allow ASDE-X to broadcast alerting signals for use in the 
cockpit.
    Mr. Chairman, Members of the Subcommittee, thank you again 
for the opportunity to present our recommendations to address 
aviation safety.
    Mr. Costello. We thank you for your testimony.
    Mr. Prater, I have a few questions. Then I will turn it 
over to Mr. Petri.
    In your testimony, you talk about a mitigation strategy in 
order to avert runway incursions. You talk about moving maps as 
an important part of that strategy. I wonder if you might 
elaborate a little bit on that.
    Mr. Prater. Well, I would compare it most to the GPS in 
your car that would show intersections. You could easily place 
the crossings, the runway crossings, the potential caution 
areas so that they are more easily seen and recognized from 
inside the cockpit instead of depending just upon the exterior 
cues, the limited markings that many places have, especially in 
low visibility conditions.
    It would certainly increase the situational awareness. A 
problem, of course, is driving the airplane, taxiing along at 
20, 25 knots while observing it.
    So one of the basic mitigations that we spoke about earlier 
is much simpler. It is to slow down. It is to slow down. It is 
do the same thing we teach our kids at the railroad crossings. 
Stop, look, and listen.
    We need to slow it down once in a while when these airports 
get too crowded, when too many operations are taking place. 
That will help just as much as the high tech solutions.
    Mr. Costello. Thank you.
    Mr. Boyer, you are exactly on point, and I am in total 
agreement with you. I gather that you picked that up earlier in 
my comments about a lack of leadership at the FAA.
    Up until 2001, they had their eye on the ball. They engaged 
with the users of the system and made them participants to try 
and come up with a system to reduce runway incursions. When the 
numbers started coming down, the FAA went off and concentrated 
on other things.
    It is unfortunate, but we know that when you leave the 
director's position open for over two years and you have a 
runway safety plan that has not been updated since 2002, we 
know that it is not a priority for the agency.
    I hope that Mr. Krakowski, his testimony here today. He is 
committed. He has over 30 years experience in the cockpit. We 
hope that that will change.
    Let me ask you. You mentioned what you had done with your 
membership, with the foundation in developing educational 
materials for general aviation pilots. How closely have you and 
the foundation worked with the FAA concerning the Runway Office 
and development in order to get this information out to the 
pilots?
    Is it strictly AOPA doing this or are you coordinating this 
with the FAA?
    Mr. Boyer. That is a very good question. I guess the first 
five years, it was in total cooperation. The brochures that we 
submitted, I think, to the Committee have the FAA and AOPA Air 
Safety Foundation logos on them. Then, it has been pretty much 
unilateral.
    Actually, after the Lexington accident that you have 
already talked about today, which was an air carrier problem, 
but you know could happen to any general aviation pilot. 
Actually, it did happen last week in St. Augustine. They only 
had a 300 foot runway, so the situation was even exacerbated 
which was left.
    But we put out 200,000 CDs of our course on runway safety 
after that accident at our expense and mailed them to members 
to call attention to runway safety.
    I think now, boy, this week a lot has gone on. We have been 
getting calls. Yet, still, there are people in the Runway 
Safety Office today that yesterday called our office and said, 
we didn't know you folks did a CD with the airlines on runway 
safety, and it was funded by the very office that was calling. 
So, no coordination
    Mr. Costello. It is a consistent pattern here that concerns 
me, and I am not here to beat up on the FAA. I am just here to 
look at the facts and try and make certain that the system gets 
better.
    We have found a lack of communication, coordination and 
reaching out to the users of the system, and that takes me to 
the question of the air traffic controllers. I want to ask Mr. 
Forrey.
    We understand that we don't want to renegotiate the 
contract here today, and we understand that there is a large 
divide between where NATCA is and where the FAA is, but earlier 
we heard the NTSB testify that after the accident occurred in 
Lexington the FAA said that they recognized. I don't know if 
they said they recognized it, that there is a fatigue issue and 
that they were working with NATCA concerning controller 
fatigue.
    I just wonder what action has the FAA taken to reach out to 
your controllers to address the issue of fatigue.
    Mr. Forrey. Mr. Chairman, the NTSB made two recommendations 
to the FAA and to us to look at the fatigue issue and 
controller scheduling and things of that nature. We wrote a 
letter to the Administrator, Blakey at the time, and said we 
would be more than happy to do that. That was probably in 2007, 
May of 2007, somewhere in that time frame.
    We did not hear back from the Administrator until September 
where she said she would like to do that at some point in time 
and they would let us know what kind of requirements or subject 
matter experts they would like from us to participate.
    In the meantime, they had sent a letter to the Chairman of 
the NTSB, stating that we were working together, sometime in 
August.
    The agency has created their own work group. They are 
already doing investigations on, I would imagine, scheduling or 
controller scheduling. They have not included us all in those 
subjects or those discussions.
    Mr. Costello. Mr. Hayes and I had talked about NextGen many 
times. You have heard, many of you, in testimony in hearings 
that we have had here in this room last year of the need, both 
Mr. Dillingham and the Inspector General encouraging the FAA to 
work with user groups to get their input.
    Obviously, they have dropped the ball regarding what you 
are doing at AOPA with your foundation, that they are not 
working as closely as they have in the past. Obviously, if they 
say they are working with NATCA to try and address these issues 
and they have not, it is an issue.
    It brings up not only runway incursion and safety issues 
but also NextGen, where we are going with NextGen.
    As I said today in the USA op-ed is that my concern is 
about a leadership. It is not about money. I mean we provide 
more money in the FAA Reauthorization Bill than the 
Administration calls for in its own proposal.
    My concern is not what we are getting in the end but how we 
get there so that we don't spend a lot of money and go back and 
say, oh, we have to retrofit this now and go back and 
backtrack.
    My concern about that is the users of the system are not 
being consulted and ample input is not being given through JPDO 
and the FAA.
    A final question and then I will let you, Mr. Forrey, since 
there was talk about the fatigue issue not only on the part of 
the controllers but also the pilots. So I will ask you to 
quickly summarize, Mr. Forrey, and you, Mr. Prater.
    Mr. Forrey, on the issue of staffing, understaffing and the 
additional hours that controllers are being forced to work, 
some would have us believe that these hours are forced on them. 
Others would have us believe that this is of their choosing, 
that they choose to work the overtime. I want to know your 
response.
    Mr. Forrey. Mr. Chairman, thank you. I appreciate the 
opportunity to answer that question.
    The facility manager calls in overtime because they require 
overtime to work the shift. It is not because a controller 
wakes up in the morning and says, you know what, I feel like 
working overtime today. I will tell the manager I will be in to 
work.
    That is not how it works.
    That is just a way of controllers deciding how they are 
going to work overtime. If they volunteer for it, they will 
call them first. If they don't, they assign it.
    There are many facilities in this Country where they are 
signing that overtime. Southern California TRACON, Atlanta 
Tower and TRACON, Miami Center, just to name a few. Those 
people are forced to work.
    What that does is because they are working short shifts, 
controllers are working positions, combined positions that 
would normally take two or three people to work. That means 
they are working more traffic. They are working more frequency. 
They are working more airplanes. There has to be a greater 
situational awareness.
    That kind of wears you out, especially if you are working 
six days a week or you are working ten hours in a day. That is 
the impact of working overtime and the fatigue that it creates.
    Now the agency likes to plump in these numbers, that it is 
only 2 percent of the entire Country. They like to generalize 
in that respect.
    But the fact of the matter is at some of our busiest 
airports and some of our busiest facilities in the Country, 
there is a lot of overtime being worked and there is a lot of 
tired controllers. That is the opportunity to make mistakes.
    As Captain Prater stated, you have inexperienced pilots now 
infiltrating the system and they are working 16 to 20-hour 
days. Even though they are not flying it, they are still busy 
doing something for that period of time.
    Someone is going to make a mistake. We rely on each other, 
pilots and controllers, to catch each other when we make 
mistakes. In most cases, it works. Like in Ft. Lauderdale, the 
pilot made a mistake, and the controller caught it. In 
LaGuardia, the controller made a mistake. The pilot caught it, 
and they avoided near disaster.
    That is the kind of system we have in place, but when you 
start reducing that or you start lowering the experience levels 
of the people working it, like the agency is doing right now, 
it is a recipe for disaster.
    Mr. Costello. Captain Prater, would you like to comment on 
pilot fatigue?
    Mr. Prater. Very briefly, even though I would like to talk 
for about 16 hours which is what the FAA says a standard duty 
day can be for an airline pilot, I will try to keep it a little 
shorter than that.
    But the fact is we can do 16 hours followed by 8 hours away 
from the airplane. Go through the airport. Find a hotel. Get a 
couple hours rest and come back 8 hours later. Go through 
security. All of you travel well, so you know it is going to be 
20 or 30 minutes. Walk through the airport. Then start another 
16-hour duty day.
    At the end of several of those, you are making the most 
important decision of your life every day. You are landing an 
airplane full of passengers, full of cargo, in the weather, and 
the fatigue catches up with you.
    What we have seen more since 2001 is that we are seeing 
many pilots flying longer days, being pushed to those maximums. 
Some of it is economics. Some of it is shortage of pilots. Some 
of it is because there is not enough pilots staffed to fly that 
full schedule.
    We are seeing the cumulative effects, and I can say easily 
in my 35, 36 years flying, I have made a few mistakes. Other 
people have caught them: the first officer, a controller. We do 
depend upon each other, but we also depend upon trying to be as 
rested as possible.
    Congressman Hayes, I think talked about it earlier. A well 
rested, well experienced, well trained pilot is how we prevent 
incidents from happening.
    Thank you, sir.
    Mr. Costello. Thank you.
    The Chair now recognizes the Ranking Member, Mr. Petri.
    Mr. Petri. Thank you.
    I have a couple areas to explore. I happened to have the 
opportunity to get a briefing from something I guess is 
referred to as the NextGen Institute that is a kind of 
industry-community consortium to help plan and think through. 
It has a series of working groups for doing NextGen as 
effectively as possible.
    One of the, I think, nine working groups they have is a 
safety working group. I am just curious to know if any of the 
organizations that you are involved with are involved with that 
or if you could discuss that, if you are being consulted, if 
there are problems with it or if it can be improved or how that 
all stands.
    If any of you would care to address that, I would be happy.
    Mr. Forrey. I just started getting involved about a year 
ago with NextGen.
    The problem with the IMC, the Institute Management Council, 
is that industry are the people that make up these subgroups. 
So they have to take people from their companies to try and 
work and volunteer while they pay them while they do that to 
work on certain projects.
    I can't pull people out of the FAA facility to go do that, 
so I am kind of limited on what we can do based on what staff I 
have available nationally. It is a good concept. Just, we don't 
get that much participation other than the main group.
    Mr. Prater. From the airports' side, we have been very 
involved from the beginning. Phil is actually the co-chair of 
the IMC, so maybe I should let him talk in greater detail.
    But from the airports' side we have been very involved. 
Like Pat said, you have to go out and get some folks from 
airports and so forth to participate in some of the groups.
    I have to say it got off to a slow start, but over the last 
year or so, it has gotten a lot better. I think Charlie Leader 
has done a good job of moving it along. So we have been 
involved in it from the beginning.
    Mr. Boyer. I would like to talk as a co-chair, and my other 
co-chair is a strange bedfellow, the head of the airlines 
association, but we do take this pretty seriously.
    Greg is right. We were off to a slow start. I think it is 
still fairly slow. I mean for you in Congress to be able to 
articulate what it is going to cost, what it is going to be, 
what it is going to do in capacity, you could hold hearings 
after hearings right now and you wouldn't get there.
    The thing that I have sort of adopted and actually the 
airlines have jumped on this. So, once again, we are together 
on this too. We need a little NowGen, and that is what we were 
talking about here. Not NextGen, not 2025, 2020 for ADS-B or 
some of the other things. We need to take some practical 
solutions as are happening now with runway safety because of 
your interest in the subject.
    We need to also look at what we can do for your 
constituents in your districts who travel on the airlines, 
travel in general aviation, that we can do now at low cost, no 
cost, and there are plenty of things. I think that is what the 
industry--and that are safe--will be working on also.
    You are going to hear that term emerge in the coming weeks, 
not only NextGen but NowGen.
    Mr. Petri. Just one other area, maybe two, that I was kind 
of curious about. You would expect--but it may not be right--
that with a global aviation environment, people flying to a lot 
of airports, say into Milwaukee International Airport or 
whatever, to Toronto and so on, that there could be problems in 
communication or safety and runway collisions that occur 
because of people being relatively less familiar with how 
people interact and all that.
    Is there any variation on international flights to the 
United States or is it as safe? Is that really not a factor? Is 
it so obvious that people have dealt with it successfully?
    Secondly, how do we compare, if anyone has any information, 
on airport runway safety here in the United States, the 
dominant market for aviation, compare with other countries 
around the world in safety?
    Our pilots fly all over the world. It is something that is 
of concern to us for them and so do our citizens. How are they 
doing when they land in London or in Ankara or somewhere?
    Mr. Prater. Congressman, I know Pat will want to weigh in 
on this because communications are key to safety.
    There are requirements for improved or enhanced English 
language. There is also an ICAO standard that we have not yet 
adopted fully in this Country, and it may have prevented one of 
the most recent accidents just to use it as a point. It is the 
use of standard language, standard phraseology.
    In the case of ICAO, which we are used to operating under 
in most foreign countries, specific ATC clearances would be 
required to cross a runway. So we would never be given 
clearance to cross, to taxi out, cross one or two runways and 
take off on another runway.
    It might have prevented Lexington because that crew would 
have been cleared to the first runway and held short and would 
not have been able to misidentify it for the active runway, the 
lighted runway. But that is not used here.
    Overseas, we fly to many airports, and it can be a 
challenge. There are many times going into an airport like de 
Gaulle or Gatwick or Rome. If we have problems, what do we do? 
What did he say?
    Query the co-pilot. What did he say? Wait a minute, let's 
just stop until we find out what the instructions are. 
Sometimes the controller there will slow down and make sure 
that we are able to understand the direction.
    So I think the key to it is taking the time, standard 
phraseology, the ICAO standards. I think we would see an 
increased runway safety environment back here in the States if 
we did it.
    Thank you, sir.
    Mr. Principato. You had asked, Congressman, about airports. 
We are part of a global organization, Airports Council 
International, and they did a global survey of this kind of 
thing. I think we provided the information to the staff, but it 
showed that this region has the best rate or the lowest rate of 
these incidents of any of the ACI regions.
    Just one other thing that might be worth thinking about if 
you are looking at the global industry is in other parts of the 
world. The U.S. airlines typically do their ground handling. 
Here, the airlines do the ground handling. In other parts of 
the world, airports typically do it, and so there is a 
difference. If you look at apron safety and so forth, you might 
find some things overseas that don't stack up quite as well 
either.
    I think we do a pretty good job here.
    But we did provide the international information to the 
staff, and we would be happy to elaborate on it if you like.
    Mr. Costello. Thank you.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Hayes.
    Mr. Hayes. Back again.
    Captain Prater, President Forrey, is there any formal or 
informal along the lines of runway incursion prevention talk 
between controllers and pilots?
    They have the best perspective of anybody. Are there any 
talks going on or any plan there?
    I am lucky. I have you all come and see me all the time, so 
I can talk about it. But is there something happening there?
    Mr. Prater. Well, there is, but again it is between our two 
unions. NATCA conducts a Communications for Safety seminar ever 
year that we are proud to participate in. Some of the regionals 
are starting to have more air traffic control-pilot 
interaction.
    We used to get to see our controllers a lot more because 
they had the right to ride our jumpseat, and that is a real 
serious safety tool that we no longer enjoy.
    Controllers, probably, and pilots have the same type of 
relationship maybe as doctors and nurses at times. There might 
be a little bickering, but they straighten us out and we listen 
to them.
    When they can ride our jumpseat and see the view from the 
cockpit window and we can talk about problems, it used to be a 
pretty good safety tool. FAA took it away from us. We need that 
back, sir.
    Mr. Forrey. Mr. Hayes, I would say that what we have 
started doing, because the agency doesn't want to include us, 
is we have reached out to industry and, of course, our fellow 
union brothers and sisters in the pilots association.
    We have started meeting in major hubs now. We just started 
this year with our safety committee and their safety committee, 
and we are trying to explain the airspace to these guys and 
gals, understand what they are going through and what they can 
expect, and we are just starting to build those relationships. 
It is quite impressive what these people are doing.
    So we are creating that dialogue ourselves. We are reaching 
out and doing that. It is important, and it is something we 
should have been doing a long time ago.
    Mr. Hayes. I think it would be very important to Phil and 
everybody else at the table if you would come back to the 
Committee with some practical things. We sometimes get 
paralysis by analysis around here, but to me that would be 
very, very helpful. Watch out for Congressional fatigue as we 
deal with some of these issues. That is also an issue.
    Let me switch over to Mr. Kallenbach.
    You have a multi-tasking guy sitting beside you. He can go 
steam gauge or he can go technology. Honeywell is obviously an 
innovator as are many with gadgets. Sam understands, and it is 
second nature to him but a little bit foreign to me.
    Once you go into the development stage, we are going to 
switch over to ADS-B in a minute, how do you take information 
from the field and translate that into technology to solve 
problems and make things safer? Kind of give us your 
perspective on how that works.
    Mr. Kallenbach. Okay.
    Mr. Hayes. Lessons learned, if you will.
    Mr. Kallenbach. Sure, I would be happy to.
    Maybe one of the best examples is a recent product we have 
come out with called Synthetic Vision which by taking 
information that we have in our terrain database, our EGPWS 
database. We take that information and we fuse that graphically 
and portray that on your primary flight display, still the same 
primary flight display information that has always been in the 
cockpit. By doing this, what we have been able to do is give 
the pilot better situational awareness inside the cockpit.
    The methodology is that we basically sit with pilots, crew, 
controllers, members of NTSB, for instance, to try and 
understand what is the problem we are trying to solve in the 
case of pilot awareness. Through a series of interviews, we 
develop a voice of the customer and kind of an assessment of 
what really would help them solve their problem. So you don't 
want to give them too much information. You want to just give 
them the exact relevant information they need at the time.
    Then we develop a prototype. That prototype then becomes 
something we can test with similar or same groups. Take it 
flying. Take it into a pre-production phase and ultimately, 
working with the FAA and the certification authorities, 
globally come up with a certified system.
    In general, that process can take anywhere from three to 
five years.
    Mr. Hayes. Good point. There are so many things that are 
available now that enhance safety and make flying easier. The 
more communications we have within interested groups, the 
better off we are going to be.
    Taking all that and putting it in a nice round package, 
what do the industry and all the groups at the table and the 
FAA going to do to bring the advantages at a reasonable price 
to the flying public, be it airlines or general aviation, with 
ADS-B?
    I mean that is just sitting there, waiting to happen. If we 
would get all the folks to really give it their best effort, 
that could be implemented and technologically a lot of our 
issues would be dealt with. Any thoughts on that, Phil or Mr. 
Kallenbach or anybody?
    Mr. Boyer. I think, first of all, I want to go on the 
record in answering the question you asked earlier with Prater 
and Forrey.
    Pat was very instrumental. Actually, I think he attended 
and worked with a couple of them. A seminar series our Air 
Safety Foundation did around the Country and still is doing, 
called ATC and You, and it was done in conjunction with NATCA. 
Pat had some of his controllers each evening.
    This was put on around the Country, and this was probably 
the biggest audience-drawing set of seminars we have ever done 
because of the interest of the pilots in hearing and being able 
to talk directly with Pat's membership.
    But in answer to your question, I think we have to get into 
what needs to be certified by the agency and what is 
supplemental to flying the airplane.
    We sit today in most of our GA planes that are new with the 
plot of the runway environment and the taxiways in the airplane 
on them, so that we can taxi at busy airports. Prater would be 
jealous of this today, but it is the certification level. In a 
Part 91 operation, it is supplemental.
    So what needs to go through years and years of study to say 
isn't the GPS in the car good enough to know we are coming on 
this street, we are coming up on this taxiway or this runway.
    So a lot of the slowdown is trying to channel the FAA into 
saying everything that is in the cockpit that is for the safety 
of flight, the basic safety of flight, yes, needs to be 
certified.
    But supplemental information like datalink radar, like the 
moving map displays, don't really need to go through that same 
level of certification if you still have a paper chart. You 
still have a co-pilot. You are still looking out the window. 
This is just that extra information like it is on your car GPS.
    Mr. Hayes. Great point.
    I have used up all my time, Mr. Chairman.
    But, again, thank you. You all hit on some really good 
things. I know Captain Prater would love to have NEXRAD.
    Anyway, take your controller out to lunch. That works.
    [Laughter.]
    Mr. Costello. The Chair now recognizes the gentleman from 
Missouri, Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman. I am going to have to 
bolt real quick. I have to handle a bill panel over on the 
Floor, but just a comment.
    I would love to explore some things in this, and I do want 
to applaud, obviously, Honeywell for the technology you are 
working on. I don't know if it can be afforded by GA pilots. It 
probably can't, unfortunately.
    But it goes back to and it kind of dovetails on what Mr. 
Prater said and Mr. Boyer just said, and we all learned it in 
basic flight training. You have to look out the window. That is 
the bottom line. You have to look out the window. All the 
technology in the world isn't going to replace that simple 
thing.
    When we took advanced flight training and when I have taken 
advanced flight training, you learned to bury your head in the 
panel, but it is that basic flight training stuff when you are 
on the ground. Slow down, but you have to look out the window 
and see what is coming and what is out there.
    Too many times we do just exactly what I said. We bury our 
heads in the panel and aren't paying attention. It goes for the 
controllers too. That is the reason the tower is so tall, so 
you can look out the window and see what is going on.
    I know I am oversimplifying this to a great deal, but the 
fact of the matter remains that is simple technology. Enhanced 
runway markings work. The stop lights work. But look out the 
window.
    Thanks, Mr. Chairman.
    Mr. Costello. Thank you.
    That concludes the testimony of our witnesses.
    The hearing went on a little bit longer than we anticipated 
because of votes on the Floor, but we appreciate all of our 
witnesses staying here to answer questions from members of the 
panel.
    I can assure not only our friends at the FAA but all of you 
and everyone in the industry that we are going to continue to 
provide aggressive oversight to make certain that the FAA is 
moving forward and doing everything they possibly can do, 
working with all of the stakeholders so that we can improve the 
runway incursions that we have recently seen and have 
experienced.
    That concludes this hearing. Again, we thank you very much. 
The Subcommittee stands adjourned.
    [Whereupon, at 5:50 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 40816.014
    
    [GRAPHIC] [TIFF OMITTED] 40816.015
    
    [GRAPHIC] [TIFF OMITTED] 40816.016
    
    [GRAPHIC] [TIFF OMITTED] 40816.017
    
    [GRAPHIC] [TIFF OMITTED] 40816.018
    
    [GRAPHIC] [TIFF OMITTED] 40816.019
    
    [GRAPHIC] [TIFF OMITTED] 40816.020
    
    [GRAPHIC] [TIFF OMITTED] 40816.021
    
    [GRAPHIC] [TIFF OMITTED] 40816.022
    
    [GRAPHIC] [TIFF OMITTED] 40816.023
    
    [GRAPHIC] [TIFF OMITTED] 40816.024
    
    [GRAPHIC] [TIFF OMITTED] 40816.025
    
    [GRAPHIC] [TIFF OMITTED] 40816.026
    
    [GRAPHIC] [TIFF OMITTED] 40816.027
    
    [GRAPHIC] [TIFF OMITTED] 40816.028
    
    [GRAPHIC] [TIFF OMITTED] 40816.029
    
    [GRAPHIC] [TIFF OMITTED] 40816.030
    
    [GRAPHIC] [TIFF OMITTED] 40816.031
    
    [GRAPHIC] [TIFF OMITTED] 40816.032
    
    [GRAPHIC] [TIFF OMITTED] 40816.033
    
    [GRAPHIC] [TIFF OMITTED] 40816.034
    
    [GRAPHIC] [TIFF OMITTED] 40816.035
    
    [GRAPHIC] [TIFF OMITTED] 40816.036
    
    [GRAPHIC] [TIFF OMITTED] 40816.037
    
    [GRAPHIC] [TIFF OMITTED] 40816.038
    
    [GRAPHIC] [TIFF OMITTED] 40816.039
    
    [GRAPHIC] [TIFF OMITTED] 40816.040
    
    [GRAPHIC] [TIFF OMITTED] 40816.041
    
    [GRAPHIC] [TIFF OMITTED] 40816.042
    
    [GRAPHIC] [TIFF OMITTED] 40816.043
    
    [GRAPHIC] [TIFF OMITTED] 40816.044
    
    [GRAPHIC] [TIFF OMITTED] 40816.045
    
    [GRAPHIC] [TIFF OMITTED] 40816.046
    
    [GRAPHIC] [TIFF OMITTED] 40816.047
    
    [GRAPHIC] [TIFF OMITTED] 40816.048
    
    [GRAPHIC] [TIFF OMITTED] 40816.049
    
    [GRAPHIC] [TIFF OMITTED] 40816.050
    
    [GRAPHIC] [TIFF OMITTED] 40816.051
    
    [GRAPHIC] [TIFF OMITTED] 40816.052
    
    [GRAPHIC] [TIFF OMITTED] 40816.053
    
    [GRAPHIC] [TIFF OMITTED] 40816.054
    
    [GRAPHIC] [TIFF OMITTED] 40816.055
    
    [GRAPHIC] [TIFF OMITTED] 40816.056
    
    [GRAPHIC] [TIFF OMITTED] 40816.057
    
    [GRAPHIC] [TIFF OMITTED] 40816.058
    
    [GRAPHIC] [TIFF OMITTED] 40816.059
    
    [GRAPHIC] [TIFF OMITTED] 40816.060
    
    [GRAPHIC] [TIFF OMITTED] 40816.061
    
    [GRAPHIC] [TIFF OMITTED] 40816.062
    
    [GRAPHIC] [TIFF OMITTED] 40816.063
    
    [GRAPHIC] [TIFF OMITTED] 40816.064
    
    [GRAPHIC] [TIFF OMITTED] 40816.065
    
    [GRAPHIC] [TIFF OMITTED] 40816.066
    
    [GRAPHIC] [TIFF OMITTED] 40816.067
    
    [GRAPHIC] [TIFF OMITTED] 40816.068
    
    [GRAPHIC] [TIFF OMITTED] 40816.069
    
    [GRAPHIC] [TIFF OMITTED] 40816.070
    
    [GRAPHIC] [TIFF OMITTED] 40816.071
    
    [GRAPHIC] [TIFF OMITTED] 40816.072
    
    [GRAPHIC] [TIFF OMITTED] 40816.073
    
    [GRAPHIC] [TIFF OMITTED] 40816.074
    
    [GRAPHIC] [TIFF OMITTED] 40816.075
    
    [GRAPHIC] [TIFF OMITTED] 40816.076
    
    [GRAPHIC] [TIFF OMITTED] 40816.077
    
    [GRAPHIC] [TIFF OMITTED] 40816.078
    
    [GRAPHIC] [TIFF OMITTED] 40816.079
    
    [GRAPHIC] [TIFF OMITTED] 40816.080
    
    [GRAPHIC] [TIFF OMITTED] 40816.081
    
    [GRAPHIC] [TIFF OMITTED] 40816.082
    
    [GRAPHIC] [TIFF OMITTED] 40816.083
    
    [GRAPHIC] [TIFF OMITTED] 40816.084
    
    [GRAPHIC] [TIFF OMITTED] 40816.085
    
    [GRAPHIC] [TIFF OMITTED] 40816.086
    
    [GRAPHIC] [TIFF OMITTED] 40816.087
    
    [GRAPHIC] [TIFF OMITTED] 40816.088
    
    [GRAPHIC] [TIFF OMITTED] 40816.089
    
    [GRAPHIC] [TIFF OMITTED] 40816.090
    
    [GRAPHIC] [TIFF OMITTED] 40816.091
    
    [GRAPHIC] [TIFF OMITTED] 40816.092
    
    [GRAPHIC] [TIFF OMITTED] 40816.093
    
    [GRAPHIC] [TIFF OMITTED] 40816.094
    
    [GRAPHIC] [TIFF OMITTED] 40816.095
    
    [GRAPHIC] [TIFF OMITTED] 40816.096
    
    [GRAPHIC] [TIFF OMITTED] 40816.097
    
    [GRAPHIC] [TIFF OMITTED] 40816.098
    
    [GRAPHIC] [TIFF OMITTED] 40816.099
    
    [GRAPHIC] [TIFF OMITTED] 40816.100
    
    [GRAPHIC] [TIFF OMITTED] 40816.101
    
    [GRAPHIC] [TIFF OMITTED] 40816.102
    
    [GRAPHIC] [TIFF OMITTED] 40816.103
    
    [GRAPHIC] [TIFF OMITTED] 40816.104
    
    [GRAPHIC] [TIFF OMITTED] 40816.105
    
    [GRAPHIC] [TIFF OMITTED] 40816.106
    
    [GRAPHIC] [TIFF OMITTED] 40816.107
    
    [GRAPHIC] [TIFF OMITTED] 40816.108
    
    [GRAPHIC] [TIFF OMITTED] 40816.109
    
    [GRAPHIC] [TIFF OMITTED] 40816.110
    
    [GRAPHIC] [TIFF OMITTED] 40816.111
    
    [GRAPHIC] [TIFF OMITTED] 40816.112
    
    [GRAPHIC] [TIFF OMITTED] 40816.113
    
    [GRAPHIC] [TIFF OMITTED] 40816.114
    
    [GRAPHIC] [TIFF OMITTED] 40816.115
    
    [GRAPHIC] [TIFF OMITTED] 40816.116
    
    [GRAPHIC] [TIFF OMITTED] 40816.117
    
    [GRAPHIC] [TIFF OMITTED] 40816.118
    
    [GRAPHIC] [TIFF OMITTED] 40816.119
    
    [GRAPHIC] [TIFF OMITTED] 40816.120
    
    [GRAPHIC] [TIFF OMITTED] 40816.121
    
    [GRAPHIC] [TIFF OMITTED] 40816.122
    
    [GRAPHIC] [TIFF OMITTED] 40816.123
    
    [GRAPHIC] [TIFF OMITTED] 40816.124
    
    [GRAPHIC] [TIFF OMITTED] 40816.125
    
    [GRAPHIC] [TIFF OMITTED] 40816.126
    
    [GRAPHIC] [TIFF OMITTED] 40816.127
    
    [GRAPHIC] [TIFF OMITTED] 40816.128
    
    [GRAPHIC] [TIFF OMITTED] 40816.129
    
    [GRAPHIC] [TIFF OMITTED] 40816.130
    
    [GRAPHIC] [TIFF OMITTED] 40816.131
    
    [GRAPHIC] [TIFF OMITTED] 40816.132
    
    [GRAPHIC] [TIFF OMITTED] 40816.133
    
    [GRAPHIC] [TIFF OMITTED] 40816.134
    
    [GRAPHIC] [TIFF OMITTED] 40816.135
    
    [GRAPHIC] [TIFF OMITTED] 40816.136
    
    [GRAPHIC] [TIFF OMITTED] 40816.137
    
    [GRAPHIC] [TIFF OMITTED] 40816.138
    
    [GRAPHIC] [TIFF OMITTED] 40816.139
    
    [GRAPHIC] [TIFF OMITTED] 40816.140
    
    [GRAPHIC] [TIFF OMITTED] 40816.141
    
    [GRAPHIC] [TIFF OMITTED] 40816.142
    
    [GRAPHIC] [TIFF OMITTED] 40816.143
    
    [GRAPHIC] [TIFF OMITTED] 40816.144
    
    [GRAPHIC] [TIFF OMITTED] 40816.145
    
    [GRAPHIC] [TIFF OMITTED] 40816.146
    
    [GRAPHIC] [TIFF OMITTED] 40816.147
    
    [GRAPHIC] [TIFF OMITTED] 40816.148
    
    [GRAPHIC] [TIFF OMITTED] 40816.149
    
    [GRAPHIC] [TIFF OMITTED] 40816.150
    
    [GRAPHIC] [TIFF OMITTED] 40816.151
    
    [GRAPHIC] [TIFF OMITTED] 40816.152
    
    [GRAPHIC] [TIFF OMITTED] 40816.153
    
    [GRAPHIC] [TIFF OMITTED] 40816.154
    
    [GRAPHIC] [TIFF OMITTED] 40816.155
    
    [GRAPHIC] [TIFF OMITTED] 40816.156
    
    [GRAPHIC] [TIFF OMITTED] 40816.157
    
    [GRAPHIC] [TIFF OMITTED] 40816.158
    
    [GRAPHIC] [TIFF OMITTED] 40816.159
    
    [GRAPHIC] [TIFF OMITTED] 40816.160
    
    [GRAPHIC] [TIFF OMITTED] 40816.161
    
    [GRAPHIC] [TIFF OMITTED] 40816.162
    
    [GRAPHIC] [TIFF OMITTED] 40816.163
    
    [GRAPHIC] [TIFF OMITTED] 40816.164
    
    [GRAPHIC] [TIFF OMITTED] 40816.165
    
    [GRAPHIC] [TIFF OMITTED] 40816.166
    
    [GRAPHIC] [TIFF OMITTED] 40816.167
    
    [GRAPHIC] [TIFF OMITTED] 40816.168
    
    [GRAPHIC] [TIFF OMITTED] 40816.169
    
    [GRAPHIC] [TIFF OMITTED] 40816.170
    
    [GRAPHIC] [TIFF OMITTED] 40816.171
    
    [GRAPHIC] [TIFF OMITTED] 40816.172
    
    [GRAPHIC] [TIFF OMITTED] 40816.173
    
    [GRAPHIC] [TIFF OMITTED] 40816.174
    
    [GRAPHIC] [TIFF OMITTED] 40816.175
    
    [GRAPHIC] [TIFF OMITTED] 40816.176
    
    [GRAPHIC] [TIFF OMITTED] 40816.177
    
    [GRAPHIC] [TIFF OMITTED] 40816.178
    
    [GRAPHIC] [TIFF OMITTED] 40816.179
    
    [GRAPHIC] [TIFF OMITTED] 40816.180
    
    [GRAPHIC] [TIFF OMITTED] 40816.181
    
    [GRAPHIC] [TIFF OMITTED] 40816.182
    
    [GRAPHIC] [TIFF OMITTED] 40816.183
    
    [GRAPHIC] [TIFF OMITTED] 40816.184
    
    [GRAPHIC] [TIFF OMITTED] 40816.185
    
    [GRAPHIC] [TIFF OMITTED] 40816.186
    
    [GRAPHIC] [TIFF OMITTED] 40816.187
    
    [GRAPHIC] [TIFF OMITTED] 40816.188
    
    [GRAPHIC] [TIFF OMITTED] 40816.189
    
    [GRAPHIC] [TIFF OMITTED] 40816.190
    
    [GRAPHIC] [TIFF OMITTED] 40816.191
    
    [GRAPHIC] [TIFF OMITTED] 40816.192
    
    [GRAPHIC] [TIFF OMITTED] 40816.193
    
    [GRAPHIC] [TIFF OMITTED] 40816.194
    
    [GRAPHIC] [TIFF OMITTED] 40816.195
    
    [GRAPHIC] [TIFF OMITTED] 40816.196
    
    [GRAPHIC] [TIFF OMITTED] 40816.197
    
    [GRAPHIC] [TIFF OMITTED] 40816.198
    
    [GRAPHIC] [TIFF OMITTED] 40816.199
    
    [GRAPHIC] [TIFF OMITTED] 40816.200
    
    [GRAPHIC] [TIFF OMITTED] 40816.201
    
    [GRAPHIC] [TIFF OMITTED] 40816.202
    
    [GRAPHIC] [TIFF OMITTED] 40816.203
    
    [GRAPHIC] [TIFF OMITTED] 40816.204
    
    [GRAPHIC] [TIFF OMITTED] 40816.205
    
    [GRAPHIC] [TIFF OMITTED] 40816.206
    
    [GRAPHIC] [TIFF OMITTED] 40816.207
    
    [GRAPHIC] [TIFF OMITTED] 40816.208
    
    [GRAPHIC] [TIFF OMITTED] 40816.209
    
    [GRAPHIC] [TIFF OMITTED] 40816.210
    
    [GRAPHIC] [TIFF OMITTED] 40816.211
    
    [GRAPHIC] [TIFF OMITTED] 40816.212
    
    [GRAPHIC] [TIFF OMITTED] 40816.213
    
    [GRAPHIC] [TIFF OMITTED] 40816.214
    
    [GRAPHIC] [TIFF OMITTED] 40816.215
    
    [GRAPHIC] [TIFF OMITTED] 40816.216
    
    [GRAPHIC] [TIFF OMITTED] 40816.217
    
    [GRAPHIC] [TIFF OMITTED] 40816.218
    
    [GRAPHIC] [TIFF OMITTED] 40816.219
    
    [GRAPHIC] [TIFF OMITTED] 40816.220
    
    [GRAPHIC] [TIFF OMITTED] 40816.221
    
    [GRAPHIC] [TIFF OMITTED] 40816.222
    
    [GRAPHIC] [TIFF OMITTED] 40816.223
    
    [GRAPHIC] [TIFF OMITTED] 40816.224
    
    [GRAPHIC] [TIFF OMITTED] 40816.225
    
    [GRAPHIC] [TIFF OMITTED] 40816.226
    
    [GRAPHIC] [TIFF OMITTED] 40816.227
    
    [GRAPHIC] [TIFF OMITTED] 40816.228
    
    [GRAPHIC] [TIFF OMITTED] 40816.229
    
    [GRAPHIC] [TIFF OMITTED] 40816.230
    
    [GRAPHIC] [TIFF OMITTED] 40816.231
    
    [GRAPHIC] [TIFF OMITTED] 40816.232
    
    [GRAPHIC] [TIFF OMITTED] 40816.233
    
    [GRAPHIC] [TIFF OMITTED] 40816.234
    
    [GRAPHIC] [TIFF OMITTED] 40816.235
    
    [GRAPHIC] [TIFF OMITTED] 40816.236
    
    [GRAPHIC] [TIFF OMITTED] 40816.237
    
    [GRAPHIC] [TIFF OMITTED] 40816.238
    
    [GRAPHIC] [TIFF OMITTED] 40816.239
    
    [GRAPHIC] [TIFF OMITTED] 40816.240
    
    [GRAPHIC] [TIFF OMITTED] 40816.241
    
    [GRAPHIC] [TIFF OMITTED] 40816.242
    
    [GRAPHIC] [TIFF OMITTED] 40816.243
    
    [GRAPHIC] [TIFF OMITTED] 40816.244
    
    [GRAPHIC] [TIFF OMITTED] 40816.245
    
    [GRAPHIC] [TIFF OMITTED] 40816.246
    
    [GRAPHIC] [TIFF OMITTED] 40816.247
    
    [GRAPHIC] [TIFF OMITTED] 40816.248
    
    [GRAPHIC] [TIFF OMITTED] 40816.249
    
    [GRAPHIC] [TIFF OMITTED] 40816.250
    
    [GRAPHIC] [TIFF OMITTED] 40816.251
    
    [GRAPHIC] [TIFF OMITTED] 40816.252
    
    [GRAPHIC] [TIFF OMITTED] 40816.253
    
    [GRAPHIC] [TIFF OMITTED] 40816.254
    
    [GRAPHIC] [TIFF OMITTED] 40816.255
    
    [GRAPHIC] [TIFF OMITTED] 40816.256
    
    [GRAPHIC] [TIFF OMITTED] 40816.257
    
    [GRAPHIC] [TIFF OMITTED] 40816.258
    
    [GRAPHIC] [TIFF OMITTED] 40816.259
    
    [GRAPHIC] [TIFF OMITTED] 40816.260
    
    [GRAPHIC] [TIFF OMITTED] 40816.261
    
    [GRAPHIC] [TIFF OMITTED] 40816.262
    
    [GRAPHIC] [TIFF OMITTED] 40816.263
    
    [GRAPHIC] [TIFF OMITTED] 40816.264
    
    [GRAPHIC] [TIFF OMITTED] 40816.265
    
    [GRAPHIC] [TIFF OMITTED] 40816.266
    
    [GRAPHIC] [TIFF OMITTED] 40816.267
    
    [GRAPHIC] [TIFF OMITTED] 40816.268
    
    [GRAPHIC] [TIFF OMITTED] 40816.269
    
    [GRAPHIC] [TIFF OMITTED] 40816.270
    
    [GRAPHIC] [TIFF OMITTED] 40816.271
    
    [GRAPHIC] [TIFF OMITTED] 40816.272
    
    [GRAPHIC] [TIFF OMITTED] 40816.273
    
    [GRAPHIC] [TIFF OMITTED] 40816.274
    
    [GRAPHIC] [TIFF OMITTED] 40816.275
    
    [GRAPHIC] [TIFF OMITTED] 40816.276
    
    [GRAPHIC] [TIFF OMITTED] 40816.277
    
    [GRAPHIC] [TIFF OMITTED] 40816.278
    
    [GRAPHIC] [TIFF OMITTED] 40816.279
    
    [GRAPHIC] [TIFF OMITTED] 40816.280
    
    [GRAPHIC] [TIFF OMITTED] 40816.281
    
    [GRAPHIC] [TIFF OMITTED] 40816.282
    
    [GRAPHIC] [TIFF OMITTED] 40816.283
    
    [GRAPHIC] [TIFF OMITTED] 40816.284
    
    [GRAPHIC] [TIFF OMITTED] 40816.285
    
    [GRAPHIC] [TIFF OMITTED] 40816.286
    
    [GRAPHIC] [TIFF OMITTED] 40816.287
    
    [GRAPHIC] [TIFF OMITTED] 40816.288
    
    [GRAPHIC] [TIFF OMITTED] 40816.289
    
    [GRAPHIC] [TIFF OMITTED] 40816.290
    
    [GRAPHIC] [TIFF OMITTED] 40816.291
    
    [GRAPHIC] [TIFF OMITTED] 40816.292
    
    [GRAPHIC] [TIFF OMITTED] 40816.293
    
    [GRAPHIC] [TIFF OMITTED] 40816.294
    
    [GRAPHIC] [TIFF OMITTED] 40816.295
    
    [GRAPHIC] [TIFF OMITTED] 40816.296
    
    [GRAPHIC] [TIFF OMITTED] 40816.297
    
    [GRAPHIC] [TIFF OMITTED] 40816.298
    
    [GRAPHIC] [TIFF OMITTED] 40816.299
    
    [GRAPHIC] [TIFF OMITTED] 40816.300
    
    [GRAPHIC] [TIFF OMITTED] 40816.301
    
    [GRAPHIC] [TIFF OMITTED] 40816.302
    
    [GRAPHIC] [TIFF OMITTED] 40816.303
    
    [GRAPHIC] [TIFF OMITTED] 40816.304
    
    [GRAPHIC] [TIFF OMITTED] 40816.305
    
    [GRAPHIC] [TIFF OMITTED] 40816.306
    
    [GRAPHIC] [TIFF OMITTED] 40816.307
    
    [GRAPHIC] [TIFF OMITTED] 40816.308
    
    [GRAPHIC] [TIFF OMITTED] 40816.309
    
    [GRAPHIC] [TIFF OMITTED] 40816.310
    
    [GRAPHIC] [TIFF OMITTED] 40816.311
    
    [GRAPHIC] [TIFF OMITTED] 40816.312
    
    [GRAPHIC] [TIFF OMITTED] 40816.313
    
    [GRAPHIC] [TIFF OMITTED] 40816.314
    
                                    
</pre></body></html>
